No.

In the Supreme Court of the United States
DOUGLAS BROWNBACK, ET AL., PETITIONERS
v.
JAMES KING
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
JOSEPH H. HUNT
Assistant Attorney General
JEFFREY B. WALL
Deputy Solicitor General
MICHAEL R. HUSTON
Assistant to the Solicitor
General
MARK B. STERN
MICHAEL SHIH
Attorneys
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTION PRESENTED

The Federal Tort Claims Act (FTCA), 28 U.S.C.
1346(b), 2671 et seq., waives the sovereign immunity of
the United States and creates a cause of action for damages for certain torts committed by federal employees
“under circumstances where the United States, if a private person, would be liable to the claimant in accordance with the law of the place where the act or omission
occurred.” 28 U.S.C. 1346(b)(1). The FTCA also
imposes a judgment bar, which provides that “[t]he
judgment in an action under section 1346(b) of this title
shall constitute a complete bar to any action by the
claimant, by reason of the same subject matter, against
the employee of the government whose act or omission
gave rise to the claim.” 28 U.S.C. 2676.
The question presented is whether a final judgment
in favor of the United States in an action brought under
Section 1346(b)(1), on the ground that a private person
would not be liable to the claimant under state tort law
for the injuries alleged, bars a claim under Bivens v. Six
Unknown Named Agents of Federal Bureau of Narcotics, 403 U.S. 388 (1971), that is brought by the same
claimant, based on the same injuries, and against the
same governmental employees whose acts gave rise to
the claimant’s FTCA claim.

(I)

PARTIES TO THE PROCEEDING

Petitioners were the appellees in the court of
appeals. They are Special Agent Douglas Brownback of
the Federal Bureau of Investigation and Detective
Todd Allen of the City of Grand Rapids, Michigan,
Police Department. *
Respondent is James King.
RELATED PROCEEDINGS

United States District Court (W.D. Mich.):
King v. United States, No. 16-cv-343 (Aug. 24, 2017)
United States Court of Appeals (6th Cir.):
King v. United States, No. 17-2101 (Feb. 25, 2019),
petition for reh’g denied, May 28, 2019.

Respondent’s complaint in the district court named, as additional defendants, Officer Connie Morris of the Grand Rapids Police
Department and the United States. See App., infra, 49a-50a. The
district court dismissed respondent’s claims against Officer Morris
and the United States, id. at 80a, and respondent did not appeal his
claims against those defendants. As a result, those defendants did
not appear in the court of appeals. See id. at 2a.
*

(II)

TABLE OF CONTENTS

Page
Opinions below .............................................................................. 1
Jurisdiction .................................................................................... 1
Statutory provisions involved ...................................................... 2
Statement ...................................................................................... 3
Reasons for granting the petition ............................................. 11
A. The decision below conflicts with the FTCA’s
text and this Court’s decision in Simmons ................... 12
B. The decision below also conflicts with decisions
of other federal courts of appeals .................................. 20
C. The question presented warrants this Court’s
review ............................................................................... 26
Conclusion ................................................................................... 28
Appendix A — Court of appeals opinion (Feb. 25, 2019) ...... 1a
Appendix B — District court opinion and order
(Aug. 24, 2017) ........................................... 46a
Appendix C — Court of appeals order denying rehearing
(May 28, 2019) ............................................ 82a
Appendix D — Court of appeals judgment
(Feb. 25, 2019)............................................ 84a
Appendix E — District court judgment (Aug. 24, 2017) .... 86a
Appendix F — Statutory provisions ..................................... 87a
TABLE OF AUTHORITIES

Cases:
Ather ton v. Jewell, 689 Fed. Appx. 643
(D.C. Cir. 2017) ................................................................... 26
Bivens v. Six Unknown Named Agents of Fed.
Bureau of Narcotics, 403 U.S. 388 (1971) .................... 4, 12
Dozier v. Ford Motor Co., 702 F.2d 1189
(D.C. Cir. 1983) ................................................................... 20
FDIC v. Meyer, 510 U.S. 471 (1994) ...................... 3, 9, 15, 18
Farmer v. Perrill, 275 F.3d 958 (10th Cir. 2001) ......... 23, 24
(III)

IV
Cases—Continued:

Page

Fazaga v. FBI, 916 F.3d 1202 (9th Cir. 2019) ..................... 26
Gasho v. United States, 39 F.3d 1420
(9th Cir. 1994), cert. denied, 515 U.S. 1144 (1995) ..... 26, 27
Harris v. United States, 422 F.3d 322
(6th Cir. 2005) ................................................................ 24, 26
Haywood v. Drown, 556 U.S. 729 (2009) ............................. 17
Himmelreich v. Federal Bureau of Prisons,
766 F.3d 576 (6th Cir. 2014), aff ’d on other
grounds, Simmons v. Himmelreich,
136 S. Ct. 1843 (2016) ............................................... 9, 10, 16
Kreines v. United States, 959 F.2d 834
(9th Cir. 1992) ...................................................................... 26
Manning v. United States, 546 F.3d 430
(7th Cir. 2008), cert. denied, 558 U.S. 1011
(2009) ........................................................................ 22, 23, 26
Pesnell v. Arsenault, 543 F.3d 1038 (9th Cir. 2008)........... 26
Rose v. Town of Harwich, 778 F.2d 77
(1st Cir. 1985), cert. denied, 476 U.S. 1159 (1986) ..... 19, 20
Semtek Int’l Inc. v. Lockheed Martin Corp.,
531 U.S. 497 (2001).............................................................. 20
Serra v. Pichardo, 786 F.3d 237 (6th Cir.),
cert. denied, 479 U.S. 826 (1986) ....................................... 24
Simmons v. Himmelreich, 136 S. Ct. 1843 (2016) .... passim
Unus v. Kane, 565 F.3d 103 (4th Cir. 2009),
cert. denied, 558 U.S. 1147 (2010) ..................................... 21
Statutes and rule:
Federal Tort Claims Act,
28 U.S.C. 1346(b), 2671 et seq. ............................................. 2
28 U.S.C. 1346 .................................................................... 2
28 U.S.C. 1346(b) ................................................... 2, 14, 15
28 U.S.C. 1346(b)(1) ............................................... passim

V
Statutes and rule—Continued:

Page

28 U.S.C. 2402 .................................................................. 22
28 U.S.C. 2676 ......................................................... passim
28 U.S.C. 2679(b)(1) .................................................. 3, 87a
28 U.S.C. 2679(b)(2) .................................................. 3, 87a
28 U.S.C. 2679(d)(1) ........................................................ 21
28 U.S.C. 2680 .......................................................... 16, 88a
28 U.S.C. 2680(a) ..................................................... 16, 88a
28 U.S.C. 2680(h) ....................................................... 4, 88a
Fugitive Felon Act, 18 U.S.C. 1073 ....................................... 7
42 U.S.C. 1983 .................................................................... 7, 10
Fed. R. Civ. P. 59(e) .............................................................. 22

In the Supreme Court of the United States
No.
DOUGLAS BROWNBACK, ET AL., PETITIONERS
v.
JAMES KING
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

The Solicitor General, on behalf of Special Agent
Douglas Brownback and Detective Todd Allen, respectfully petitions for a writ of certiorari to review the judgment of the United States Court of Appeals for the
Sixth Circuit in this case.
OPINIONS BELOW

The opinion of the court of appeals (App., infra, 1a-45a)
is reported at 917 F.3d 409. The opinion and order of
the district court (App., infra, 46a-81a) are not published in the Federal Supplement but are available at
2017 WL 6508182.
JURISDICTION

The judgment of the court of appeals was entered on
February 25, 2019 (App., infra, 84a-85a). A petition for
rehearing was denied on May 28, 2019 (App., infra,
82a-83a). On August 18, 2019, Justice Sotomayor
extended the time within which to file a petition for a
(1)

2
writ of certiorari to and including September 25, 2019.
On September 16, Justice Sotomayor further extended
the time to and including October 25, 2019. The jurisdiction of this Court is invoked under 28 U.S.C. 1254(1).
STATUTORY PROVISIONS INVOLVED

The Federal Tort Claims Act (FTCA), 28 U.S.C.
1346(b), 2671 et seq., provides at 28 U.S.C. 1346:
United States as defendant

***
(b)(1) Subject to the provisions of chapter 171 of this
title, the district courts * * * shall have exclusive
jurisdiction of civil actions on claims against the
United States, for money damages, * * * for injury
or loss of property, or personal injury or death
caused by the negligent or wrongful act or omission
of any employee of the Government while acting
within the scope of his office or employment, under
circumstances where the United States, if a private
person, would be liable to the claimant in accordance
with the law of the place where the act or omission
occurred.
28 U.S.C. 2676 provides that:
Judgment as bar

The judgment in an action under section 1346(b) of
this title shall constitute a complete bar to any action
by the claimant, by reason of the same subject matter, against the employee of the government whose
act or omission gave rise to the claim.
Other relevant statutory provisions are reproduced
in the appendix to this petition. App., infra, 87a-88a.

3
STATEMENT

1. The FTCA waives the sovereign immunity of the
United States, creates a cause of action for damages,
and confers exclusive federal-court jurisdiction for
claims that fall within the statute’s terms. See FDIC v.
Meyer, 510 U.S. 471, 477 (1994). Congress directed
each of those results in a single subsection of the FTCA,
Section 1346(b)(1), which provides:
Subject to the provisions of chapter 171 of this title,
the district courts * * * shall have exclusive jurisdiction of civil actions on claims [1] against the
United States, [2] for money damages, * * * [3] for
injury or loss of property, or personal injury or death
[4] caused by the negligent or wrongful act or omission of any employee of the Government [5] while
acting within the scope of his office or employment,
[6] under circumstances where the United States, if
a private person, would be liable to the claimant in
accordance with the law of the place where the act or
omission occurred.
28 U.S.C. 1346(b)(1); see Meyer, 510 U.S. at 477.
The remedy provided by the FTCA is generally “exclusive of any other civil action or proceeding for money
damages by reason of the same subject matter against
the [federal] employee whose act or omission gave rise
to the claim.” 28 U.S.C. 2679(b)(1). That limitation,
however, “does not extend or apply to a civil action
against an employee of the Government * * * which is
brought for a violation of the Constitution of the United
States.” 28 U.S.C. 2679(b)(2). In addition, while the
FTCA states that “[t]he provisions of this chapter and
section 1346(b) of this title” generally “shall not apply
to” “[a]ny claim arising out of ” most intentional torts,
the statute further provides that “with regard to acts or

4
omissions of investigative or law enforcement officers of
the United States Government, the provisions of this
chapter and section 1346(b) of this title shall apply to
any claim arising * * * out of assault, battery, false imprisonment, false arrest, abuse of process, or malicious
prosecution.” 28 U.S.C. 2680(h). Thus, where a person
alleges that federal law-enforcement agents committed
one or more of the named state-law torts and also constitutional violations, the FTCA permits that person to
plead either an FTCA claim against the United States
or individual-capacity claims against the employees
under Bivens v. Six Unknown Named Agents of Federal Bureau of Narcotics, 403 U.S. 388 (1971), or both.
The FTCA also imposes a judgment bar, which provides that “[t]he judgment in an action under section
1346(b) of this title shall constitute a complete bar to
any action by the claimant, by reason of the same subject matter, against the employee of the government
whose act or omission gave rise to the claim.” 28 U.S.C.
2676. The judgment bar establishes that a plaintiff who
“receives a judgment (favorable or not) in an FTCA suit
* * * generally cannot proceed with a suit against an
individual employee based on the same underlying
facts.” Simmons v. Himmelreich, 136 S. Ct. 1843, 1847
(2016). The statute thereby “prevents unnecessarily
duplicative litigation” after an FTCA claimant has had
“a fair chance to recover damages for his” alleged
injury. Id. at 1849.
2. This case arises from a violent encounter in July
2014 that occurred in Grand Rapids, Michigan between
respondent James King and petitioners Douglas
Brownback and Todd Allen. Petitioners “were members of a ‘joint fugitive task force between the [Federal
Bureau of Investigation (FBI)] and the City of Grand

5
Rapids.’ ” App., infra, 2a (citation omitted). Brownback
was an FBI Special Agent. Ibid. Allen was a detective
of the Grand Rapids Police Department who was
assigned full time to the FBI-directed task force, id. at
2a, 36a, and who was “a federally deputized Special
Deputy U.S. Marshal,” id. at 54a.
The officers’ task force was searching for a fugitive
named Aaron Davison, who was the subject of a Michigan arrest warrant for felony home invasion. App.,
infra, 2a. The officers knew that Davison was a 26-yearold white male between 5’10” and 6’3” with glasses,
short dark hair, and a thin build. Id. at 2a-3a. The
officers also had two photographs of Davison, but they
were of somewhat limited use because one was seven
years old and the other showed Davison’s face obscured
by sunglasses. Id. at 3a; see id. at 18a (officers’ photographs of Davison).
During their investigation, the officers learned that
Davison bought a soft drink almost every day from a
particular gas station in Grand Rapids between 2 p.m.
and 4 p.m., so they went to that neighborhood and surveilled it. App., infra, 3a. Around 2:30 p.m., the officers
saw respondent—a 21-year-old white male between
5’10” and 6’3” with dark hair and glasses—walking
down the street in an area near the gas station where
Davison was known to buy his daily soft drink. Ibid.
The officers believed there was a “good possibility” that
respondent was the fugitive, so they approached and
stopped him. Ibid. (citation omitted). They were wearing plain clothes, but had badges on lanyards around
their necks that were visible to respondent. Id. at 3a-4a.
The officers asked respondent for his name, and he
simply replied “James.” Id. at 48a (citation omitted).
The officers asked respondent for identification, and he

6
replied that he did not have any. Id. at 3a. The officers
then instructed respondent to put his hands on his head
and face their vehicle, and respondent complied. Ibid.
He later testified that he did so because, based on the
officers’ badges, he “assumed [they had] some sort of
authority.” Id. at 3a-4a (citation omitted).
The officers asked respondent if he was carrying any
weapons, and he replied that he had a pocketknife, so
Detective Allen removed the pocketknife from respondent’s pocket. App., infra, 4a. Detective Allen also commented on the size of respondent’s wallet and removed
it, too, from his pocket. Ibid. Respondent then asked,
“Are you mugging me?” and attempted to run away.
Ibid. (brackets and citation omitted). Detective Allen
chased respondent and tackled him. Ibid. Respondent
alleges that Detective Allen put him in a chokehold,
which he says caused him to lose consciousness for several seconds. Ibid. It is undisputed, however, that respondent fought with the officers and violently resisted
arrest, including by biting Detective Allen in the arm.
Ibid.; see id. at 30a-31a, 74a. In an attempt to force respondent to release his bite, Detective Allen began
“punching [respondent] in the head and face ‘as hard as
he could, as fast as he could, and as many times as he
could.’ ” Id. at 4a (brackets and citation omitted).
The officers were able to subdue respondent only
with the assistance of a bystander. App., infra, 31a.
They took respondent to a hospital, where doctors concluded that he did not require admission for further
treatment and released him with a prescription for painkillers. Id. at 5a. Eventually, law enforcement determined that respondent was not the fugitive for whom
they had been searching. Id. at 49a. The State of Michigan tried respondent on charges of assault with intent

7
to do great bodily harm, aggravated assault of a police
officer, and resisting arrest, but a jury acquitted him.
Id. at 5a, 49a.
3. Respondent then sued the United States under
the FTCA, alleging six torts under Michigan law:
assault, battery, false arrest, false imprisonment, malicious prosecution, and intentional infliction of emotional
distress. App., infra, 75a. As relevant here, respondent
also sued the officers under both Bivens and 42 U.S.C.
1983, alleging constitutional violations including an
unreasonable search and seizure, and use of excessive
force. Id. at 5a, 50a. His complaint drew on testimony
that had been given during his criminal trial. See Gov’t
C.A. Br. 3 n.1.
All defendants moved to dismiss the complaint on
two grounds: lack of subject-matter jurisdiction and
failure to state a claim upon which relief can be granted.
App., infra, 50a-51a. In the alternative, the defendants
moved for summary judgment. Ibid. The district court
granted the motion. Id. at 46a-81a.
As to respondent’s individual-capacity claims against
the officers, the district court first ruled that those
claims should be brought under Bivens, not Section
1983. App., infra, 54a-58a. Although Detective Allen
was employed by the City of Grand Rapids at the time,
the court found that he should be treated as a federal
employee for purposes of this case because he was a
deputized federal agent working on an FBI investigation pursuant to the federal Fugitive Felon Act,
18 U.S.C. 1073. App., infra, 54a-58a. On the merits of
the Bivens claims, the court determined that the officers had not violated respondent’s constitutional rights,
either by engaging in an unreasonable search or seizure
or by using excessive force. Id. at 59a-69a.

8
As to respondent’s FTCA claims, the district court
entered judgment for the United States, finding that respondent had failed to allege or introduce facts sufficient to show that the officers’ actions could support
“liab[ility] to the claimant in accordance with the law
of the place where the act or omission occurred.”
28 U.S.C. 1346(b)(1); see App., infra, 75a-80a. Specifically, the court determined that, under Michigan law,
the officers would be immune from the tort claims
because their actions were “within the scope of their
authority”; “in good faith, or were not undertaken with
malice”; and “were discretionary, as opposed to ministerial.” Id. at 79a-80a; see id. at 76a-80a. In the alternative, irrespective of any Michigan-law immunity, the
court determined that respondent’s state-law claims for
assault and battery should be dismissed because the
officers had “used reasonable force in subduing [him]”;
respondent’s claims for false imprisonment, false
arrest, and malicious prosecution should be dismissed
because “probable cause existed” to arrest and charge
him; and respondent’s claim for intentional infliction of
emotional distress should be dismissed because the
officers had “acted within their authority” throughout
their encounter with him. Id. at 80a.
4. The court of appeals reversed in a partially
divided opinion. App., infra, 1a-45a.1
a. Respondent initially noticed an appeal of the
judgments on both his FTCA and Bivens claims. In his
The court of appeals stated that, because the district court had
not specified the basis for its judgment in favor of the defendants
and because the district court appeared to have considered at least
some facts beyond the complaint, the court of appeals would treat
the district court’s ruling as a grant of summary judgment to the
defendants. App., infra, 1a n.1.
1

9
opening brief, however, respondent stated that he had
“decided not to pursue his claim against the United
States on appeal.” Resp. C.A. Br. 18 n.5. As a result,
respondent’s appeal encompassed only his Bivens
claims, the United States was “not part[y] to th[e] appeal,” App., infra, 2a, and the FTCA judgment became
final. The officers accordingly argued on appeal that
respondent’s Bivens claims were precluded by the
FTCA judgment bar, because those claims arose from
“the same subject matter” as his FTCA claims and were
pleaded against the same governmental employees
“whose act or omission gave rise to the [FTCA]
claim[s].” 28 U.S.C. 2676.
The panel majority rejected the officers’ argument
that the judgment bar foreclosed respondent’s Bivens
claims. App., infra, 6a-12a. The majority observed that
the FTCA enacts a limited waiver of the United States’
sovereign immunity, and “[s]overeign immunity is jurisdictional in nature.” Id. at 6a (citing Meyer, 510 U.S. at
475). The majority therefore reasoned that, if a plaintiff ’s FTCA claim “fails to satisfy the[ ] six elements”
described in 28 U.S.C. 1346(b)(1), it “does not fall within
the FTCA’s ‘jurisdictional grant.’ ” App., infra, 7a (quoting Meyer, 510 U.S. at 477). In the majority’s view,
“[b]ecause [respondent] failed to state a FTCA claim,”
the district court must have “lacked subject-matter
jurisdiction over [his] FTCA claim,” and the district
court’s judgment “was not a disposition on the merits.”
Id. at 8a-10a. The majority then invoked Himmelreich
v. Federal Bureau of Prisons, 766 F.3d 576 (6th Cir.
2014) (per curiam)—which this Court affirmed on different reasoning in Simmons, 136 S. Ct. at 1843—for
the proposition that “[a] dismissal for lack of subject-

10
matter jurisdiction does not trigger the § 2676 judgment bar” because “in the absence of jurisdiction, the
court lacks the power to enter judgment.” App., infra, 7a
(quoting 766 F.3d at 579). Applying that reasoning, the
panel majority concluded that “the district court’s dismissal of [respondent’s] FTCA claim ‘does not trigger the
§ 2676 judgment bar.’ ” Id. at 9a (citation omitted).
The panel majority additionally reasoned that this
Court’s decision in Simmons supported its refusal to
apply the judgment bar in this case, because Simmons
held that “ ‘the FTCA’s judgment bar provision functions in much the same way’ as the ‘common-law doctrine of claim preclusion.’ ” App., infra, 11a (quoting
136 S. Ct. at 1849 n.5). The majority thought it “wellestablished that ‘a dismissal for a lack of subject-matter
jurisdiction carries no preclusive effect.’ ” Id. at 11a-12a
(quoting Himmelreich, 766 F.3d at 580).
After finding that respondent’s individual-capacity
claims were not precluded by the judgment bar, the
court of appeals affirmed the district court’s conclusion
that those claims must be brought under Bivens rather
than 42 U.S.C. 1983, App., infra, 34a-37a, because the
officers’ “conduct is fairly attributable only to the
United States and not to the State of Michigan,” id. at
36a. But the court of appeals concluded, viewing the
record in the light most favorable to respondent, that
the officers were not entitled to qualified immunity and
were not entitled to summary judgment on some of respondent’s Bivens claims. Id. at 13a-34a. The court
therefore reversed the district court’s judgment in
favor of the officers on those claims and remanded for
further proceedings. Id. at 38a.
b. Judge Rogers dissented on the ground that
respondent’s Bivens claims were precluded by the

11
FTCA judgment bar. App., infra, 39a-45a. He reasoned that “merits determinations under the FTCA are
jurisdictional in that they implicate the sovereign immunity of the United States,” but a dismissal for failure
to state a claim under the FTCA is still a “ ‘judgment’ ”
within the meaning of 28 U.S.C. 2676. App., infra, 40a.
Judge Rogers noted that “[t]he district court’s dismissal of [respondent’s] FTCA claims was based on an
assessment of their merits under Michigan law.” Id. at
41a. And this Court in Simmons, Judge Rogers
explained, held that the judgment bar applies when an
FTCA claim is dismissed “because [the plaintiff] simply
failed to prove his claim.” Id. at 40a (quoting 136 S. Ct.
at 1849) (brackets in original). Judge Rogers further
observed that, in “[e]very case” where a district court
determines that a plaintiff failed to establish the elements of his FTCA claim, including even cases where
judgment is entered against the plaintiff “after trial,”
the majority’s reasoning would require the conclusion
that the judgment bar does not apply because the court
lacked jurisdiction. Id. at 42a. Therefore, the majority’s reasoning “would effectively nullify the judgment
bar” in all cases “where the FTCA judgment was in
favor of the government”—a result that this Court
expressly rejected in Simmons. Ibid.
c. A majority of the panel denied the officers’ petition for rehearing, and the court of appeals denied a
petition for rehearing en banc. App., infra, 82a.
REASONS FOR GRANTING THE PETITION

When “an action under” 28 U.S.C. 1346(b)(1) has
gone to “judgment,” Section 2676 establishes a “complete bar” to “any action” “by the claimant” arising from
“the same subject matter” against the governmental
employees “whose act[s] or omission[s] gave rise to the

12
[FTCA] claim.” 28 U.S.C. 2676. The judgment bar is a
key part of Congress’s compromise for the FTCA: Congress opened the possibility of liability against the
United States, but provided that once a claimant has
attempted to prove his FTCA claim (unsuccessfully or
successfully), he may not take “a second bite at the
money-damages apple” by suing federal employees over
the same acts. Simmons v. Himmelreich, 136 S. Ct.
1843, 1849 (2016). The court of appeals nevertheless
held that a final judgment on an FTCA claim against a
plaintiff who failed to establish the liability of the
United States under state law cannot trigger the judgment bar, because that judgment could be described as
implicating the district court’s “jurisdiction.” The court
of appeals’ holding—which would effectively nullify the
judgment bar whenever the United States prevails in an
FTCA suit—is contrary to the plain text of Section
2676, cannot be reconciled with this Court’s explanation
of the judgment bar in Simmons, and creates a direct
conflict among the courts of appeals on a recurring issue
of federal law.
A. The Decision Below Conflicts With The FTCA’s Text
And This Court’s Decision In Simmons

1. A straightforward application of the text of the
judgment bar requires dismissal of respondent’s claims
against the officers under Bivens v. Six Unknown
Named Agents of Federal Bureau of Narcotics, 403 U.S.
388 (1971). Respondent pleaded “an action under section 1346(b).” 28 U.S.C. 2676. The district court
entered a “judgment” on his FTCA claims in favor of
the United States, ibid., on the ground that respondent
had failed to allege or introduce facts sufficient to show
any violation of Michigan law, and that judgment
became final when respondent intentionally declined to

13
appeal it. Respondent’s Bivens claims are directed
“against the [same] employee[s] of the government
whose act[s] or omission[s] gave rise to [his FTCA]
claim[s],” and they concern “the same subject matter.”
Ibid. The “judgment in [the FTCA] action” therefore
“constitute[s] a complete bar” to respondent’s Bivens
action. Ibid.
This Court’s interpretation of Section 2676 in Simmons reinforces that the judgment bar precludes
respondent’s Bivens claims. In Simmons, the Court
explained that the judgment bar applies “once a plaintiff receives a judgment (favorable or not) in an FTCA
suit.” 136 S. Ct. at 1847 (emphasis added). The Court
went on to give examples of the kinds of FTCA judgments that Section 2676 would give preclusive effect: If
a district court “issued a judgment dismissing [the
plaintiff ’s FTCA suit] because the [federal] employees
were not negligent, because [the plaintiff] was not
harmed, or because [the plaintiff] simply failed to prove
his claim.” Id. at 1849 (emphasis added). That explanation of the judgment bar describes this case exactly.
The district court found that respondent had “simply
failed to prove” his FTCA claims, ibid., because even
accepting all of his factual allegations as true, he had
not shown that a private person in analogous circumstances would be liable for the state-law torts that he
claimed. App., infra, 80a. Simmons thus makes clear
that the district court’s FTCA judgment—which finally
resolved the substantive liability of the United States
on respondent’s FTCA claims—was precisely the type
of “judgment” that Congress intended to give preclusive effect through the judgment bar.
Simmons also explains why the purposes of the judgment bar are served by applying it here: Congress

14
directed that, when a plaintiff has had “a fair chance to
recover damages for” his alleged injuries through his
FTCA claim against the United States, “it would make
little sense to give [the plaintiff ] a second bite at the
money-damages apple by allowing suit against the employees.” 136 S. Ct. at 1849. The judgment bar thereby
“prevents unnecessarily duplicative litigation.” Ibid.
Yet according to the reasoning of the court of appeals
below, even when an FTCA plaintiff has had a fair
chance to recover damages against the United States
but has failed to prove any violation of state law, the
FTCA judgment against the plaintiff carries no preclusive force, and the litigation must start over with
the same federal employees facing trial on individualcapacity claims based on the same facts.
2. The court of appeals gave two justifications for
refusing to apply the judgment bar to respondent’s
Bivens claims. Neither has merit.
a. The court of appeals reasoned principally that the
judgment bar contains an implied exception for “dismissal[s] for lack of subject-matter jurisdiction.” App.,
infra, 7a. In the court’s view, because the FTCA waives
the United States’ sovereign immunity in Section
1346(b), a plaintiff ’s “fail[ure] to satisfy the sixth element” of his FTCA claim—i.e., to show conduct that
would constitute a violation of state law if committed by
a private person—necessarily deprives the district
court of subject-matter jurisdiction over the FTCA
claim, with the result that a judgment dismissing that
claim is not preclusive. Id. at 8a-9a.
The court of appeals’ reasoning is foreclosed by the
judgment bar’s text and this Court’s interpretation of
that provision in Simmons. As explained above,
28 U.S.C. 2676 bars an FTCA plaintiff from pursuing

15
other related claims against individual employees when
he receives a “judgment” in his FTCA action—including
an unfavorable judgment—after having had “a fair
chance to recover damages” through his FTCA claim,
that is, a fair chance to prove the liability of the United
States under state law. Simmons, 136 S. Ct. at 1849.
The judgment bar does not depend on whether the
plaintiff succeeded or failed at establishing the liability
of the United States on his FTCA claim. Id. at 1847,
1849. And where an FTCA judgment does finally
resolve the liability of the United States under state
law, Section 2676 gives that judgment preclusive effect,
see ibid.; the statute does not withhold preclusive effect
on the ground that the FTCA judgment could, in some
sense, be described as implicating the court’s subjectmatter jurisdiction.
The court of appeals’ decision also failed to take
appropriate account of the FTCA’s structure. As
described above, p. 3, supra, Section 1346(b)(1) confers
subject-matter jurisdiction by waiving the United
States’ sovereign immunity on the exact same terms as
the elements of the FTCA cause of action. See FDIC v.
Meyer, 510 U.S. 471, 479 (1994) (Section 1346(b) “describes the scope of jurisdiction by reference to claims
for which the United States has waived its immunity
and rendered itself liable”). Thus, by the court of
appeals’ logic, any judgment against an FTCA claimant
who fails to prove an element of his FTCA claim must
be understood as a dismissal for lack of subject-matter
jurisdiction that is incapable of triggering the judgment
bar. See App., infra, 7a (“If a claim fails to satisfy the[ ]
six elements, it is not ‘cognizable’ under § 1346(b) and
does not fall within the FTCA’s “ ‘jurisdictional grant.’ ”)
(citation omitted). That reading of Section 2676 would

16
“effectively nullify” the judgment bar in any case
“where the FTCA judgment was in favor of the government.” Id. at 42a (Rogers, J., dissenting). And that reasoning is directly contrary to Simmons, which expressly said that the judgment bar does apply to an
FTCA judgment that is not favorable to the claimant.
136 S. Ct. at 1847, 1849.
The court of appeals did not attempt to reconcile its
opinion with the FTCA’s text and structure, and it only
barely mentioned this Court’s explanation of the judgment bar in Simmons. The court of appeals stated that
Simmons “does not conflict with” (App., infra, 11a) the
court’s own previous decision in Himmelreich v. Federal Bureau of Prisons, 766 F.3d 576 (6th Cir. 2014)
(per curiam)—the decision that this Court affirmed in
Simmons, supra, but on reasoning completely different
from that of the court of appeals. That case presented
the question whether the judgment bar is triggered
when an FTCA claim is dismissed based on the FTCA’s
discretionary-function exception, 28 U.S.C. 2680(a),
which is one of several enumerated “Exceptions” to Section 1346(b). See 28 U.S.C. 2680; Simmons, 136 S. Ct.
at 1845-1846. The court of appeals held that the answer
was no. See Himmelreich, 766 F.3d at 579-580. This
Court agreed, but it did so because the text of the
FTCA’s exceptions section states that “[t]he provisions
of this chapter [Chapter 171]”—which include the judgment bar—“shall not apply to” claims excluded from the
FTCA by one of the enumerated exceptions. 28 U.S.C.
2680; see Simmons, 136 S. Ct. at 1847-1848. This Court
did not endorse the Sixth Circuit’s suggestion in Himmelreich that dismissals based on an FTCA exception
carry jurisdictional consequences and fall outside the
judgment bar for that reason. On the contrary, this

17
Court made clear that the judgment bar would apply to
a judgment of dismissal based on the plaintiff ’s failure
to prove his FTCA claim. See Simmons, 136 S. Ct. at
1849. Yet according to the Sixth Circuit in the opinion
below, that failure of proof is the very thing that deprives
the district court of jurisdiction and prevents application of the judgment bar.
The court of appeals attempted to justify its refusal
to apply the judgment bar here by invoking the general
principle that, where a district court makes findings
that establish the absence of jurisdiction, those findings
“prevent[ ] the district court from reaching a decision on
the merits” of the claim. App., infra, 11a; see ibid. (observing that, ordinarily, establishing the requirements
for subject-matter jurisdiction “determines only whether a court has the power to entertain a particular claim
—a condition precedent to reaching the merits of a legal
dispute”) (quoting Haywood v. Drown, 556 U.S. 729, 755
(2009) (Thomas, J., dissenting)). But even to the extent
that a judgment of dismissal based on a failure to prove
an FTCA claim has jurisdictional consequences, the
structure of Section 1346(b)(1)—by tying the waiver of
sovereign immunity to claims that satisfy all the elements of the FTCA cause of action—demonstrates that
the FTCA is an exception to that general principle. Section 2676 is therefore best read to mean that, where (as
here) a district court determines that an FTCA claimant has failed to establish the liability of the United
States under state law, the court’s judgment is a “judgment in an action under section 1346(b)” that triggers
the judgment bar, 28 U.S.C. 2676, regardless of whether
the dismissal order can be described as implicating the
court’s jurisdiction.

18
Moreover, to the extent that it is relevant for present
purposes to distinguish a dismissal “on the merits” from
a dismissal “for lack of subject-matter jurisdiction” in
the context of a plaintiff ’s failure to establish the elements of his FTCA claim under Section 1346(b)(1), this
Court’s decision in FDIC v. Meyer, supra, indicates that
the district court here did have subject-matter jurisdiction that gave it the power to enter a preclusive judgment, contrary to the conclusion of the court of appeals.
App., infra, 10a-12a. In Meyer, in the course of interpreting a different FTCA provision (not the judgment
bar), this Court held that “[a] claim comes within [the
FTCA’s] jurisdictional grant * * * if it is actionable
under [the FTCA].” 510 U.S. at 477. “And a claim is
actionable under § 1346(b) if it alleges the six elements
outlined,” that is, if the claim is “[1] against the United
States, [2] for money damages, . . . [3] for injury or loss
of property, or personal injury or death [4] caused by
the negligent or wrongful act or omission of any
employee of the Government [5] while acting within the
scope of his office or employment, [6] under circumstances where the United States, if a private person,
would be liable to the claimant in accordance with the
law of the place where the act or omission occurred.”
Ibid. (quoting 28 U.S.C. 1346(b)(1)) (emphasis added;
brackets in original).
Respondent here alleged all six elements of his claim
under Section 1346(b)(1); he simply failed to plead factual allegations or introduce evidence to show that,
under state law, a private person would be liable to him
for analogous conduct. The reasoning of Meyer therefore leads to the conclusion that the district court had
jurisdiction over respondent’s FTCA claims that was
sufficient to enter a judgment dismissing those claims

19
for failure to prove the liability of the United States, not
merely for lack of subject-matter jurisdiction.
b. The court of appeals also reasoned that the judgment bar should not apply here because, in Simmons,
this Court observed that the bar “ ‘functions in much the
same way’ as the ‘common-law doctrine of claim preclusion.’ ” App., infra, 11a (quoting 136 S. Ct. at 1849 n.5).
The court of appeals once again characterized the district court’s dismissal of respondent’s FTCA claims as
a “jurisdictional” determination, and then reasoned
that, as such, the FTCA judgment would not have preclusive effect under general claim-preclusion principles.
Id. at 11a-12a. That reasoning is flawed.
First, even if the court of appeals’ analysis of
common-law claim preclusion had been correct, this
Court in Simmons stated only that the judgment bar
operates in a manner “roughly analogous” to claim preclusion, 136 S. Ct. at 1849 n.5, not in lockstep with res
judicata principles. As explained above, the judgment
bar applies here by its terms, and interpreting Section
2676 to exclude the “judgment” entered against
respondent—which addressed the merits and finally
resolved the liability of the United States on his FTCA
claims—would be directly contrary to the very point of
Section 2676.
In any event, a judgment like the one in this case—
which ruled on the substance of respondent’s alleged
state-law tort violations and found no liability—likely
would have preclusive force under the common law.
Some courts have labeled a judgment as “jurisdictional”
(and non-preclusive) in the res judicata context if the
judgment “rest[s] upon * * * defects of a technical or
procedural nature which, if cured, normally ought not
to bar a plaintiff from bringing the action again.” Rose

20
v. Town of Harwich, 778 F.2d 77, 79-80 (1st Cir. 1985)
(Breyer, J.), cert. denied, 476 U.S. 1159 (1986); see Dozier
v. Ford Motor Co., 702 F.2d 1189, 1192 (D.C. Cir. 1983)
(Scalia, J.) (referring to the jurisdictional-dismissal
exception to claim preclusion as covering “curable defect[s],” when a precondition absent from the first lawsuit can be and is remedied before the second lawsuit).
By contrast, a judgment is “on the merits” for purposes
of claim preclusion if it “actually ‘passes directly on
the substance of a particular claim’ before the court.”
Semtek Int’l Inc. v. Lockheed Martin Corp., 531 U.S.
497, 501-502 (2001) (citation omitted). Applying that
standard here, the district court’s judgment against respondent likely would have preclusive effect in subsequent litigation under common law, because the dismissal was based on respondent’s inability to prove the
elements of his FTCA cause of action; it was not because
of any procedural defect that he could have cured.
B. The Decision Below Also Conflicts With Decisions Of
Other Federal Courts Of Appeals

As described above, the Sixth Circuit held that, when
a district court enters judgment in an FTCA action in
favor of the United States on the ground that the plaintiff failed to establish the liability of the United States
under state tort law, that judgment does not trigger the
Section 2676 judgment bar, because the district court
was deprived of subject-matter jurisdiction over the
FTCA claim. See App., infra, 8a-9a. That holding conflicts with decisions of multiple other federal courts of
appeals.
1. The Fourth Circuit has held, in circumstances
similar to those in this case, that a judgment in an
FTCA action grounded on the claimant’s failure to
establish the liability of the United States under state

21
law precludes the plaintiff from moving forward on
Bivens claims arising from the same conduct by the
same federal employees. See Unus v. Kane, 565 F.3d
103, 121-122 (2009), cert. denied, 558 U.S. 1147 (2010).
The plaintiffs in Unus pleaded both FTCA and Bivens
claims arising from the conduct of certain federal employees (among other defendants) in connection with
the execution of a search warrant at the plaintiffs’ home.
Id. at 113-115.2 The district court dismissed the Bivens
claims based on qualified immunity, id. at 114, and it
entered summary judgment in favor of the United
States on the FTCA claims on the ground that the federal employees had not violated state tort law because
they had “acted reasonably under the circumstances
known to them at the time of their conduct,” id. at 115.
The Fourth Circuit affirmed the judgment for the
United States on the FTCA claims, id. at 116-121, and
then concluded that the judgment bar precluded the
plaintiffs from pursuing their Bivens claims any further
because those claims arose from the same facts as the
dismissed FTCA claims, id. at 121-122.
Unlike the court of appeals below, the Fourth Circuit
in Unus did not refuse to apply the judgment bar on the
ground that the summary judgment in favor of the
United States on the FTCA claims had been “jurisdictional” and without preclusive effect. The reasoning of
Unus thus demonstrates that, if this case had been
brought in the Fourth Circuit, the district court’s summary judgment rejecting respondent’s FTCA claims for
failure to establish the United States’ liability under
The plaintiffs in Unus initially pleaded state-law tort claims
against the federal-employee defendants, but the United States
substituted itself as a party under 28 U.S.C. 2679(d)(1). See
565 F.3d at 114.
2

22
state law would preclude respondent from pursuing his
Bivens claims arising from the same conduct.
The court of appeals’ opinion in this case also conflicts with the Seventh Circuit’s decision in Manning v.
United States, 546 F.3d 430 (2008), cert. denied,
558 U.S. 1011 (2009), which held that an FTCA judgment in favor of the United States after trial precluded
Bivens claims arising from the same subject matter,
even when that application of the judgment bar meant
vacating a Bivens judgment that had already been
entered in the plaintiff ’s favor after a trial. Id. at
432-438. The plaintiff in Manning brought both Bivens
claims against federal employees and FTCA claims
against the United States based on state-law intentional
torts. Id. at 431. After a bifurcated trial in which the
Bivens claims were tried to a jury and the FTCA claims
were tried simultaneously before the district court, the
jury returned a verdict for the plaintiff on the Bivens
claims, but the court issued a judgment for the United
States on the FTCA claims, finding that the plaintiff
had failed to prove the alleged state-law torts. Id. at
432.3 The court then granted the employees’ motion
under Federal Rule of Civil Procedure 59(e) to vacate
the jury’s Bivens judgment against them, based on Section 2676. See Manning, 546 F.3d at 432. The court of
appeals affirmed, finding that dismissal was required
“by the plain language of the judgment bar.” Id. at 438;
see id. at 432-438.
Here again, the Seventh Circuit in Manning did not
conclude that the FTCA judgment in favor of the
FTCA claims cannot be tried to a jury, 28 U.S.C. 2402, so district
courts often bifurcate trials when FTCA claims are joined to other
claims that carry the right to a jury trial. See Manning, 546 F.3d
at 432.
3

23
United States had necessarily been “jurisdictional” and
non-preclusive. On the contrary, the court rejected the
plaintiff ’s contention that the judgment bar distinguishes favorable merits judgments from unfavorable
ones. 546 F.3d at 437.
The decision below additionally conflicts with
Farmer v. Perrill, 275 F.3d 958 (2001), where the Tenth
Circuit held that the dismissal of a plaintiff ’s FTCA
claims for failure to prosecute them required dismissal
of pending Bivens claims arising from the same subject
matter. Id. at 960. The district court in Farmer initially
denied the federal-employee defendants’ motion for
summary judgment on the plaintiff ’s Bivens claims.
Ibid. Separately, the plaintiff also filed FTCA claims
against the United States seeking damages for the same
alleged injuries. Ibid. The court dismissed the FTCA
action for failure to prosecute it, after which the
employees invoked the judgment bar and sought reconsideration of the court’s order denying them summary
judgment in the Bivens action. Id. at 960-961. The court
rejected the employees’ contention that the Bivens claims
were precluded by the judgment bar. Id. at 961. But
the court of appeals reversed, holding that “[b]y its
terms Section 2676 makes a final judgment on an FTCA
claim preclusive against any Bivens action based on the
same underlying complaint,” id. at 962, and that “Section 2676 makes no distinction between favorable and
unfavorable judgments.” Id. at 963. The court also rejected the plaintiff ’s contention that the judgment bar
should not apply because the district court had not
adjudicated the merits of the FTCA claim, holding that
“Section 2676 does not distinguish among types of judgments, [so] it is irrelevant that [the plaintiff ’s] FTCA
judgment involved a dismissal for failure to prosecute.”

24
Id. at 964-965. The reasoning in Farmer demonstrates
that the Tenth Circuit would not have permitted respondent’s Bivens claims to go further after the judgment on his FTCA claims became final.
Moreover, the court of appeals’ decision in this case
cannot be reconciled with the Sixth Circuit’s own precedent in Harris v. United States, 422 F.3d 322 (2005),
as Judge Rogers explained in his dissent below, App.,
infra, 39a, 42a. The district court in Harris dismissed
the plaintiff ’s Bivens claims as barred by the statute of
limitations, and after a bench trial, the court rejected
the plaintiff ’s FTCA claims on the merits. 422 F.3d at
326. The court of appeals affirmed the judgment in
favor of the United States on the FTCA claims, id. at
326-331, and then held that even though the district
court had incorrectly applied the statute of limitations
to the plaintiff ’s Bivens claims, those claims nevertheless could not go forward in light of the FTCA judgment
bar, id. at 333-337. The court of appeals stated that
“[n]othing in the common interpretation” of the text of
Section 2676 “suggests that a judgment in favor of the
United States may be treated differently from a judgment against the United States.” Id. at 334.
The court of appeals here, by contrast, found that the
fact that the FTCA judgment was in favor of the United
States made all the difference to the judgment bar,
because that conclusion supposedly deprived the district court of “jurisdiction.” Using similar reasoning,
the court distinguished this case from Serra v.
Pichardo, 786 F.2d 237 (6th Cir.), cert. denied, 479 U.S.
826 (1986), on the ground that the judgment bar was
applied there after “the district court granted judgment
for the plaintiff on the merits of his FTCA claim.” App.,
infra, 12a (emphasis added).

25
2. The court of appeals did not address the decisions
of the other courts of appeals that directly reject its reasoning. The court did attempt to reconcile its opinion
with Harris by stating that the district court in Harris
had “rejected the plaintiff ’s FTCA claim on the merits
after a bench trial.” App., infra, 12a. But that factual
difference between the two cases is no distinction at all.
Nothing in the text or structure of the judgment bar
supports a distinction between the preclusive effect of
an FTCA judgment entered after a trial based on the
plaintiff ’s failure to prove the liability of the United
States versus a summary judgment entered before trial
on the ground that the plaintiff ’s factual allegations,
even if true, would not show the liability of the United
States on the claim. Moreover, by acknowledging that
the judgment bar would apply if respondent’s FTCA
claims had been rejected after a trial, the court of
appeals undermined the core premise of its opinion,
which was that an FTCA judgment based on the plaintiff ’s failure to establish an element under Section
1346(b)(1) is “jurisdictional,” is not “on the merits,” and
for that reason is not preclusive.
The court of appeals offered no explanation for how
an FTCA judgment reaching the same conclusion about
the absence of the United States’ liability under state
law could be “jurisdictional” when entered before trial
but “on the merits” when entered after a trial. Although
the intra-circuit conflict between the decision below and
the opinion in Harris would not be sufficient by itself to
warrant certiorari, the court of appeals’ attempt to
square its result with Harris laid bare the inadequacy
of its reasoning.
The court of appeals also claimed (App., infra, 9a)
that the D.C. Circuit agreed with its understanding of

26
the judgment bar, citing Atherton v. Jewell, 689 Fed.
Appx. 643, 644 (2017) (per curiam). But that unpublished order on a motion for summary disposition
provides no support for the reasoning of the court of
appeals here. See id. at 643. Atherton involved an FTCA
judgment that was based on the statute’s discretionaryfunction exception, and the D.C. Circuit simply observed that this Court has held that the FTCA by its
terms excludes such judgments from the scope of Section 2676. See id. at 644 (citing Simmons, 136 S. Ct. at
1847-1849).4
C. The Question Presented Warrants This Court’s Review

As explained above, the court of appeals’ decision in
this case conflicts directly with this Court’s decision in
Simmons and the decisions of multiple other circuit
courts, including the court of appeals’ own precedent. Certiorari is warranted to resolve the division and clarify
the correct application of the judgment bar. 5
The court of appeals also cited Pesnell v. Arsenault, 543 F.3d
1038 (9th Cir. 2008), but recognized that Pesnell involved an FTCA
claim covered by the discretionary-function exception, and that
Pesnell was therefore abrogated by Simmons. See App., infra, 10a.
4

Shortly after the court of appeals’ decision in this case, the Ninth
Circuit held in Fazaga v. FBI, 916 F.3d 1202 (2019), that the judgment bar does not apply where a plaintiff brings FTCA claims and
Bivens claims in the same action (as opposed to bringing FTCA
claims first and then later attempting separately to bring Bivens
claims concerning the same alleged injuries), unless the plaintiff
obtains a judgment in his or her favor against the government. Id.
at 1250 (citing Kreines v. United States, 959 F.2d 834, 838 (9th Cir.
1992)). The court of appeals in this case did not rely on that reasoning, no other court of appeals has accepted it, and more than one
other court has rejected it. See Manning, 546 F.3d at 437 (rejecting
Kreines); Harris, 422 F.3d at 335 (same); see also Gasho v. United
States, 39 F.3d 1420, 1437 (9th Cir. 1994) (stating that “the holding
5

27
In addition, the question whether the FTCA judgment bar applies where a district court dismisses an
FTCA claim on the ground that the plaintiff failed to
establish the liability of the United States under state
law is of general importance. The question is one of
statutory interpretation that recurs with some frequency, because plaintiffs regularly elect (as respondent did) to bring both Bivens claims and FTCA claims
arising from the same alleged injuries.
The court of appeals’ decision will seriously undermine the purposes of the judgment bar. As explained
above, Congress enacted the judgment bar because successive litigation of related claims imposes significant
burdens both on the United States and on governmental
employees sued for actions within the scope of their
employment. Allowing the court of appeals’ decision to
stand would seriously undermine those objectives by
“effectively nullify[ing]” the judgment bar in the Sixth
Circuit in cases where the government prevails. App.,
infra, 42a (Rogers, J., dissenting). Under the court of
appeals’ reasoning, any decision in favor of the government on an FTCA claim based on a failure to show liability under state law can be characterized as “jurisdictional,” with the result that a very large number of
FTCA judgments rejecting the liability of the United
States would be deprived of the judgment bar’s preclusive effect.
in Kreines was narrowly confined to its facts” and rejecting the
plaintiffs’ argument that “Congress intended to permit a claimant
to have a second chance after losing his FTCA action”), cert. denied,
515 U.S. 1144 (1995). While the Ninth Circuit’s FTCA precedents
do not squarely conflict with the decision below, they demonstrate
the confusion that persists in the courts of appeals regarding the
judgment bar.

28
Respondent had a fair chance to litigate his FTCA
claims against the United States. After considering respondent’s complaint, and the incorporated excerpts of
the record from his criminal trial, the district court
determined that respondent’s factual allegations did not
show any violation of Michigan law. See App., infra,
46a, 59a-69a, 80a. Respondent chose not to appeal the
district court’s conclusions. Yet the court of appeals’
decision below would now force the officers to stand
trial for the very same conduct that was the subject of
the FTCA claims that respondent abandoned. In the
face of respondent’s “simpl[e] fail[ure] to prove his
[FTCA] claim[s],” it makes “little sense” to afford him “a
second bite at the money-damages apple by allowing suit
against the employees.” Simmons, 136 S. Ct. at 1849.
This Court should therefore grant the petition for a writ
of certiorari and correct the court of appeals’ erroneous
interpretation of the FTCA judgment bar.
CONCLUSION

The petition for a writ of certiorari should be granted.
Respectfully submitted.
NOEL J. FRANCISCO
Solicitor General
JOSEPH H. HUNT
Assistant Attorney General
JEFFREY B. WALL
Deputy Solicitor General
MICHAEL R. HUSTON
Assistant to the Solicitor
General
MARK B. STERN
MICHAEL SHIH
Attorneys

OCTOBER 2019

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

No. 17-2101
JAMES KING, PLAINTIFF-APPELLANT
v.
UNITED STATES OF AMERICA, ET AL., DEFENDANTS
DOUGLAS BROWNBACK; TODD ALLEN,
DEFENDANTS-APPELLEES
Argued: Aug. 1, 2018
Decided and Filed: Feb. 25, 2019
Appeal from the United States District Court
for the Western District of Michigan at Grand Rapids
No. 1:16-cv-00343—JANET T. NEFF, District Judge
OPINION

Before:

BOGGS, CLAY, and ROGERS, Circuit Judges.

CLAY, Circuit Judge. James King (“Plaintiff ”) appeals the district court’s order granting summary judgment 1 for Officers Todd Allen and Douglas Brownback
1
The district court stated that it was dismissing Plaintiff ’s claims
“under Federal Rule[] of Civil Procedure 12(b)(1) and (b)(6),” but that
it was also granting summary judgment for Defendants “to the extent the Court deems it necessary to review [Defendants’] arguments
under Rule 56.” (R. 91 at PageID #1006.) Because the district

(1a)

2a
(together “Defendants”) on Plaintiff ’s Fourth Amendment claims arising under 42 U.S.C. § 1983 or, alternatively, under the implied right of action set forth in
Bivens v. Six Unknown Fed. Narcotics Agents, 403 U.S.
388 (1971). The district court also granted summary
judgment for two additional defendants, including the
United States, who are not parties to this appeal. With
respect to Plaintiff ’s § 1983 or Bivens claims, this Court
REVERSES the judgment of the district court for the
reasons set forth below.
BACKGROUND
A.

Factual History

On July 18, 2014, Defendants were searching for a
criminal suspect named Aaron Davison. Police believed
that Davison had committed felony home invasion, and
the State of Michigan had issued a warrant for his arrest. Defendants were members of a “joint fugitive
task force between the FBI and the City of Grand Rapids.” (R. 30 at PageID #108.) Defendant Allen was a
detective with the Grand Rapids Police and had been assigned to the FBI task force full-time. Defendant
Brownback was a special agent with the FBI. Neither
officer was wearing a uniform as they conducted their
search, but both of them were wearing lanyards with
their badges displayed over their plainclothes.
Defendants knew that Davison was a 26 year-old
white male between 5’10” and 6’3” tall with glasses;
court did not explain this ambiguity in its ruling, and because the
district court explained that its decision “relies on [the parties’]
Joint Statement of Facts . . . unless otherwise indicated,” (id.
at 1002), the Court treats the district court’s ruling as a grant of summary judgment for Defendants.

3a
short, dark hair; and a thin build. Defendants also
knew that Davison had a habit of buying a soft drink
from a particular gas station every day between 2:00
p.m. and 4:00 p.m. And Defendants had two photographs of Davison. In the first photograph, the lighting was so dark that Davison appeared as the silhouette
of a man playing electric guitar. The second photograph, a driver’s license photo, showed Davison’s face
clearly, but the photo was seven years old at the time of
the search.
Around 2:30 p.m., Defendants saw Plaintiff walking
down the street in an area near the gas station where
Davison was known to buy his daily soft drinks. Although Plaintiff was actually a 21-year-old college student who was walking between his two summer jobs, Defendants thought Plaintiff might be their suspect because Plaintiff was a young white male between 5’10”
and 6’3” and was wearing glasses. From their unmarked vehicle, Defendants studied Plaintiff ’s face and
decided that there was a “good possibility” that he was
Davison. (R. 73 at Page ID #429-30.) Defendants
parked near Plaintiff and approached him. According
to Plaintiff, Defendants never identified themselves as
police officers. But Defendants assert that Allen identified himself as a police officer when he first approached Plaintiff.
Defendants started asking Plaintiff questions.
They asked Plaintiff who he was, and Plaintiff truthfully
answered that his name was James. Defendants then
asked Plaintiff for identification, and Plaintiff said that
he had none. Defendants told Plaintiff to put his hands
on his head and to face their vehicle. Plaintiff later testified that he complied because Defendants “had small

4a
badges around their chest, and [he] assumed [Defendants had] some sort of authority.” (Id. at PageID
#474, 477.) Defendants asked Plaintiff if he was carrying any weapons, and Plaintiff told them that he had a
pocketknife. Detective Allen removed the pocketknife
from Plaintiff ’s pocket, commented on the size of Plaintiff ’s wallet, and then removed that, too, from Plaintiff ’s
pocket. Plaintiff asked, “[a]re you mugging me?” and
attempted to run away, but Detective Allen tackled him,
grabbed Plaintiff ’s neck, and pushed him to the ground.
(Id. at PageID #474.) Plaintiff yelled for help and
begged passersby to call the police. Detective Allen
then put Plaintiff in a chokehold, at which point, Plaintiff
claimed, he lost consciousness. Several seconds later,
when Plaintiff came to, he bit into Detective Allen’s arm.
Detective Allen then started punching Plaintiff in the
head and face “as hard as [he] could, as fast as [he] could,
and as many times as [he] could.” (Id. at PageID
#433.) Plaintiff attempted to escape and to fight back
and eventually released his bite. But he could not get
away; the fight continued for over sixty seconds.
As Detective Allen continued to punch Plaintiff in the
head and face, several bystanders called the police and
began filming the incident. Numerous police officers
arrived on the scene, one of whom ordered the bystanders to delete their videos because the videos could reveal
the identities of undercover FBI agents. Some of the
bystanders deleted their videos, and footage of the actual
altercation was never discovered. The surviving footage from immediately after the incident includes one bystander who can be heard saying, “I was worried. . . .
They were out of control pounding him. . . . They
were pounding his fa—head for no reason; they were be-

5a
ing brutal.” (Ex. 6, Timestamp 0:47-1:11.) A bystander who called 911 told the operator “[t]hey’re
gonna kill this man. . . . We can’t see the victim now.
They’re over top of him. They look like they’re suffocating him. . . . I understand they have badges on,
but I don’t see no undercover police cars, no other—
backup, no nothing.” (Ex. 18, Timestamp 1:43-3:21.)
Plaintiff was transported from the scene to the emergency room, where he received medical treatment.
The emergency room doctors concluded that Plaintiff ’s
injuries did not require him to be admitted for further
treatment, and they released him with a prescription for
painkillers. Upon Plaintiff ’s discharge, police arrested
him and took him to Kent County Jail. Plaintiff spent
the weekend in jail before posting bail and visiting another hospital for further examination. Prosecutors
pursued charges against Plaintiff, but a jury acquitted
him of all charges.
B.

Procedural History

Plaintiff brought this suit alleging that Defendants
violated his clearly established Fourth Amendment
rights by conducting an unreasonable seizure and by using excessive force. Plaintiff also asserted a claim
against the United States. The district court found
that it lacked subject-matter jurisdiction to hear Plaintiff ’s claim against the United States, and it granted
summary judgment for Defendants on the basis that Defendants are entitled to qualified immunity. Plaintiff
then filed this timely appeal of his claims against Defendants.

6a
DISCUSSION
A.

The Federal Tort Claims Act Judgment Bar Does
Not Preclude Plaintiff ’s Claims Against Defendants

The Court requested supplemental briefing on
whether the judgment bar of the Federal Tort Claims
Act (“FTCA”), see 28 U.S.C. § 2676, prohibits Plaintiff
from maintaining his § 1983 or Bivens claims against
Defendants. After considering the parties’ arguments
and examining the governing statutes and case law, the
Court concludes that the FTCA does not preclude Plaintiff ’s claims.
1. Analysis
a.

Standard of Review

This Court reviews the application of the FTCA
judgment bar de novo. See United States v. Kuehne,
547 F.3d 667, 678 (6th Cir. 2008) (“Because this issue is
a matter of statutory interpretation, we conduct de novo
review.” (quoting United States v. VanHoose, 437 F.3d
497, 501 (6th Cir. 2006))).
b.

Relevant Legal Principles

“Absent a waiver, sovereign immunity shields the
Federal Government and its agencies from suit.”
F.D.I.C. v. Meyer, 510 U.S. 471, 475 (1994) (citing Loeffler v. Frank, 486 U.S. 549 (1988)). Sovereign immunity is jurisdictional in nature. Id.
“In 1946, Congress passed the FTCA, which waived
the sovereign immunity of the United States for certain
torts committed by federal employees.” Id. at 475-76.
The FTCA’s waiver provides “subject matter jurisdiction for plaintiffs to pursue state law tort claims against

7a
the United States.” Milligan v. United States, 670 F.3d
686, 692 (6th Cir. 2012) (citing 28 U.S.C. § 1346(b)(1)).
“Section 1346(b) [of the FTCA] grants the federal district courts jurisdiction over a certain category of claims
for which the United States has waived its sovereign immunity and ‘render[ed]’ itself liable.” Meyer, 510 U.S.
at 477 (quoting Richards v. United States, 369 U.S. 1, 6
(1962)).
“A claim comes within this jurisdictional
grant” only if it is:
[1] against the United States, [2] for money damages,
. . . [3] for injury or loss of property, or personal
injury or death [4] caused by the negligent or wrongful act or omission of any employee of the Government [5] while acting within the scope of his office or
employment, [6] under circumstances where the
United States, if a private person, would be liable to
the claimant in accordance with the law of the place
where the act or omission occurred.
Id. (quoting 28 U.S.C. § 1346(b)). If a claim fails to satisfy these six elements, it is not “cognizable” under
§ 1346(b) and does not fall within the FTCA’s “jurisdictional grant.” Id.
The FTCA’s judgment bar provision precludes a
plaintiff from bringing additional claims concerning the
“same subject matter” as an FTCA claim after judgment
is entered on the FTCA claim. 28 U.S.C. § 2676.
“A dismissal for lack of subject-matter jurisdiction
does not trigger the § 2676 judgment bar. Put bluntly,
in the absence of jurisdiction, the court lacks the power
to enter judgment.” Himmelreich v. Fed. Bureau of
Prisons, 766 F.3d 576, 579 (6th Cir. 2014); see also
Meyer, 510 U.S. at 478 (holding that if a claim “is not

8a
cognizable under § 1346(b), the FTCA does not constitute
[a plaintiff ’s] ‘exclusive’ remedy” because the FTCA’s
judgment bar does not apply).
c.

Application to the Matter at Hand

As explained below, the district court dismissed
Plaintiff ’s FTCA claim for lack of subject-matter jurisdiction. Because the district court did not reach the
merits of Plaintiff ’s FTCA claim, the FTCA’s judgment
bar does not preclude Plaintiff from pursuing his claims
against Defendants.
“The FTCA waives sovereign immunity where state
law would impose liability against a private individual.”
Milligan, 670 F.3d at 692 (citing Myers v. United States,
17 F.3d 890, 894 (6th Cir. 1994)). Under Michigan law,
a government employee is entitled to qualified immunity
for intentional torts if he or she establishes that:
(1) the employee’s challenged acts were undertaken
during the course of employment and that the employee was acting, or reasonably believed he was acting, within the scope of his authority, (2) the acts
were undertaken in good faith, and (3) the acts were
discretionary, rather than ministerial, in nature.
Odom v. Wayne Cty., 760 N.W.2d 217, 218 (Mich. 2008)
(adopting test articulated in Ross v. Consumers Power
Co., 363 N.W.2d 641 (Mich. 1984)). The district court
found that Plaintiff failed to satisfy the Odom/Ross test.
According to the district court, the undisputed facts indicated that Defendants’ conduct occurred during the
course of their employment and within the scope of their
authority, was not undertaken with the requisite malice
required under Michigan law, and was discretionary.
(Dist. Ct. Op. at PageID #1029-30.) Because Plaintiff

9a
failed to state a claim against the United States under
Michigan law, the district court held that the United
States was “entitled to immunity under the FTCA.”
(Id. at PageID #1030.)
The FTCA does not bar Plaintiff from maintaining
his claims against Defendants because the district court
lacked subject-matter jurisdiction over Plaintiff ’s FTCA
claim. Plaintiff failed to satisfy the sixth element of the
Meyer test—he failed to allege a claim “under circumstances where the United States, if a private person,
would be liable to the claimant in accordance with the
law of the place where the act or omission occurred.”
Meyer, 510 U.S. at 477. Because Plaintiff failed to
state a FTCA claim, his claim did not fall within the
FTCA’s “jurisdictional grant.” Id. And because the
district court lacked subject-matter jurisdiction over
Plaintiff ’s FTCA claim, the district court’s dismissal of
his FTCA claim “does not trigger the § 2676 judgment
bar.” Himmelreich, 766 F.3d at 579.
Few circuit courts of appeals have addressed whether
the FTCA’s judgment bar applies when a district court
dismisses a plaintiff ’s FTCA claims for lack of subjectmatter jurisdiction. But the D.C. Circuit reached the
same conclusion that this Court reaches here—the
FTCA’s judgment bar does not apply to dismissals for
lack of subject-matter jurisdiction. See Atherton v.
Jewell, 689 F. App’x 643, 644 (D.C. Cir. 2017) (holding
that because the district court “correctly determined
that it lacked subject-matter jurisdiction” under the
FTCA, the FTCA’s judgment bar “is not a basis for the
denial of appellant’s motion to amend the complaint” to
include a Bivens claim) (citing Simmons v. Himmel-

10a
reich, 136 S. Ct. 1843, 1847-49 (2016)). The Ninth Circuit reached a similar conclusion in Pesnell v. Arsenault,
543 F.3d 1038 (9th Cir. 2008), abrogated by Simmons v.
Himmelreich, 136 S. Ct. 1843 (2016), where it held that
the FTCA’s judgment bar did not preclude a plaintiff
from pursuing Bivens claims after the district court dismissed his FTCA claims for lack of subject-matter jurisdiction. Arsenault, 543 F.3d at 1041. However, the
Ninth Circuit stated that the plaintiff ’s Bivens claims
“are barred to the extent that they rest upon the same
misrepresentations alleged” in the FTCA action dismissed for lack of subject-matter jurisdiction. Id. at
1042. This holding is clearly wrong. If a federal court
lacks subject-matter jurisdiction, it lacks the power to
hear a case. Ex parte McCardle, 74 U.S. (7 Wall.) 506,
514 (1868). Therefore, its dismissal for lack of subjectmatter jurisdiction does not have any preclusive effect.
Himmelreich, 766 F.3d at 580.
The government contends that the district court denied Plaintiff ’s FTCA claim on the merits because it
found that Defendants failed to act with malice as required to defeat qualified immunity under Michigan law.
The Court rejects this argument. The district court
could not, as a matter of law, decide the merits of Plaintiff ’s FTCA claim—it lacked subject-matter jurisdiction
over that claim. Himmelreich, 766 F.3d at 580. It is
true that the district court analyzed Michigan law to determine whether Plaintiff stated a FTCA claim. But
stating a claim under state law is a jurisdictional prerequisite without which the FTCA’s waiver of sovereign
immunity does not apply. Meyer, 510 U.S. at 477.
Therefore, the district court’s conclusion that Plaintiff
failed to state a claim under Michigan law was not a disposition on the merits. In fact, it was the opposite—it

11a
precluded the district court from exercising subjectmatter jurisdiction over the FTCA claim and prevented
the district court from reaching a decision on the merits.
Haywood v. Drown, 556 U.S. 729, 755 (2009) (“Subjectmatter jurisdiction determines only whether a court has
the power to entertain a particular claim—a condition
precedent to reaching the merits of a legal dispute.”);
Steel Co. v. Citizens for a Better Env’t, 523 U.S. 83, 94
(1998) (“Without jurisdiction the court cannot proceed
at all in any cause. Jurisdiction is power to declare the
law, and when it ceases to exist, the only function remaining to the court is that of announcing the fact and
dismissing the cause.” (quoting McCardle, 74 U.S.
(7 Wall.) at 514)).
The Supreme Court’s opinion in Simmons v. Himmelreich, 136 S. Ct. 1843 (2016), does not change the result. In Simmons, the Supreme Court affirmed the
Sixth Circuit’s ruling and held that the judgment bar
does not apply where an FTCA claim was dismissed because it fell within an enumerated “[e]xception.” Id. at
1845. While Simmons was decided on narrower grounds
than Himmelreich, it does not conflict with the unequivocal rule in this Circuit that “[a] dismissal for lack of
subject-matter jurisdiction does not trigger the § 2676
judgment bar.” Himmelreich, 766 F.3d at 579.
Defendants argue that footnote 5 in Simmons supports their position. This argument fails to persuade
the Court. Footnote 5 explains that “the [FTCA’s]
judgment bar provision functions in much the same
way” as the “common-law doctrine of claim preclusion.”
Simmons, 136 S. Ct. at 1850 (internal citations and quotations omitted). It is well-established that “a dismissal for a lack of subject-matter jurisdiction carries no

12a
preclusive effect.” Himmelreich, 766 F.3d at 580 (citing Marrese v. Am. Acad. of Orthopaedic Surgeons,
470 U.S. 373, 382 (1985)). Thus, Defendants fail to appreciate that footnote 5 actually undermines their argument: because the district court dismissed Plaintiff ’s
FTCA claim for lack of subject-matter jurisdiction, its
dismissal does not carry any preclusive effect. See id.
Therefore, under the logic of footnote 5, the FTCA judgment bar does not prevent Plaintiff from pursuing his
claims against Defendants.
The cases that Defendants rely on are inapposite.
In Harris v. United States, 422 F.3d 322 (6th Cir. 2005),
the district court rejected the plaintiff ’s FTCA claim on
the merits after a bench trial.
Id. at 324. This Court
held that the FTCA’s judgment bar precluded further
adjudication of the plaintiff ’s Bivens claims against the
individual defendants. Id. at 324-25. In Serra v.
Pichardo, 786 F.2d 237 (6th Cir. 1986), the district court
granted judgment for the plaintiff on the merits of his
FTCA claim. Id. at 237. This Court held that the decision on the merits prevented the plaintiff from maintaining a Bivens action against the individual defendants. Id. at 238. Defendants’ analogy to Harris and
Serra fails. Here, unlike in those cases, the district
court did not reach the merits of the FTCA claim.
2. Conclusion

Because the district court dismissed Plaintiff ’s
FTCA claim for lack of subject-matter jurisdiction, the
FTCA’s judgment bar provision does not preclude
Plaintiff from pursuing his remaining claims against Defendants.

13a
B.

Qualified Immunity Does Not Shield Defendants
1. Standard of Review

This Court “review[s] a grant or denial of summary
judgment de novo, using the same Rule 56(c) standard
as the district court.” Williams v. Mehra, 186 F.3d
685, 689 (6th Cir. 1999) (en banc). Summary judgment is
appropriate when “the pleadings, depositions, answers
to interrogatories, and admissions on file, together with
the affidavits, if any, show that there is no genuine issue
as to any material fact and that the moving party is entitled to a judgment as a matter of law.” Fed. R. Civ.
P. 56(c). In deciding a motion for summary judgment,
this Court views the factual evidence and draws all reasonable inferences in favor of the non-moving party.
Nat’l Enters. v. Smith, 114 F.3d 561, 563 (6th Cir. 1997).
In order to defeat a motion for summary judgment, the
non-movant must show sufficient evidence to create a
genuine issue of material fact. Klepper v. First Am.
Bank, 916 F.2d 337, 341-42 (6th Cir. 1990) (citing Celotex
Corp. v. Catrett, 477 U.S. 317, 322 (1986)). A mere scintilla of evidence is insufficient; “there must be evidence
on which the jury could reasonably find for the [nonmovant].” Id. (quoting Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 252 (1986)). Entry of summary
judgment is appropriate “against a party who fails to
make a showing sufficient to establish the existence of
an element essential to that party’s case, and on which
that party will bear the burden of proof at trial.” Celotex, 477 U.S. at 322.
2. Analysis

Plaintiff argues that the district court erred when it
granted summary judgment for Defendants because the

14a
evidence leaves material facts in dispute as to whether
Defendants are entitled to qualified immunity. The
doctrine of qualified immunity shields government officials “from liability for civil damages if their actions did
not violate clearly established statutory or constitutional rights of which a reasonable person would have
known.” Webb v. United States, 789 F.3d 647, 659 (6th
Cir. 2015) (quoting Harlow v. Fitzgerald, 457 U.S. 800,
818 (1982)). The qualified immunity analysis involves
a two-step inquiry: (1) whether, viewing the record in
the light most favorable to the plaintiff, a constitutional
right has been violated; and (2) whether the right at issue was “clearly established” at the time the constitutional violation occurred. Id.
The Court will first analyze qualified immunity in the
context of Plaintiff ’s unreasonable search and seizure
claims. The Court will then turn to Plaintiff ’s excessive force claims. As explained below, the district
court erred by finding that qualified immunity shielded
Defendants in regard to both sets of claims.
a.

Unreasonable Search and Seizure Claims

The Fourth Amendment provides that “[t]he right of
the people to be secure in their persons, houses, papers,
and effects, against unreasonable searches and seizures,
shall not be violated[.]” U.S. Const. amend. IV. “A
warrantless search or seizure is ‘per se unreasonable under the Fourth Amendment—subject only to a few specifically established and well-delineated exceptions.’ ”
United States v. Roark, 36 F.3d 14, 17 (6th Cir. 1994)
(quoting Katz v. United States, 389 U.S. 347, 357 (1967)).
The Supreme Court has identified three types of reasonable, and thus permissible, warrantless encounters be-

15a
tween the police and citizens: (1) consensual encounters, which may be initiated by a police officer based on
a mere hunch or without any articulable reason whatsoever; (2) investigative stops (or Terry stops), which are
temporary, involuntary detentions that must be predicated upon “reasonable suspicion;” and (3) arrests,
which must be based upon “probable cause.” United
States v. Pearce, 531 F.3d 374, 380 (6th Cir. 2008) (citing
United States v. Alston, 375 F.3d 408, 411 (6th Cir.
2004)). Under this framework, an individual is free “to
ignore the police and go about [his or her] business,” Illinois v. Wardlow, 528 U.S. 119, 125 (2000), unless a police officer has at least reasonable suspicion that the individual has committed, or is about to commit, a crime.
See Family Serv. Ass’n ex rel. Coil v. Wells Twp.,
783 F.3d 600, 604 (6th Cir. 2015).
In this case, Plaintiff argues that Defendants acted
unreasonably when they (1) performed an investigative
stop, (2) performed a protective search, and (3) stopped
Plaintiff ’s attempt to run away. The Court analyzes
each argument in turn.
i. Reasonableness of the Investigative
Stop
As a threshold matter, Defendants could have arrested Plaintiff without running afoul of the Fourth
Amendment if they had reasonably mistaken Plaintiff
for Davison. “Arrest warrants in the hands of a police
officer, unless facially invalid, are presumed valid.”
Fettes v. Hendershot, 375 F. App’x 528, 532 (6th Cir. 2010).
“[P]olice and correction employees may rely on facially
valid arrest warrants even in the face of vehement claims
of innocence by reason of mistaken identity or otherwise.”

16a
Masters v. Crouch, 872 F.2d 1248, 1253 (6th Cir. 1989) (citing Baker v. McCollan, 443 U.S. 137, 145 (1979)).
“[W]hen the police have probable cause to arrest one
party, and when they reasonably mistake a second party
for the first party, then the arrest of the second party is a
valid arrest.” Hill v. California, 401 U.S. 797, 802 (1971)
(internal citations and quotation marks omitted); see also
Fettes, 375 F. App’x at 532; Ingram v. City of Columbus,
185 F.3d 579, 595 (6th Cir. 1999).
But Defendants do not argue that they reasonably
mistook Plaintiff for Davison. Instead, they argue that
they reasonably suspected that Plaintiff might be Davison, thereby justifying an investigative stop. 2 “[I]f
police have a reasonable suspicion, grounded in specific
and articulable facts, that a person they encounter was
involved in or is wanted in connection with a completed
felony, then a Terry stop may be made to investigate
that suspicion.” United States v. Hensley, 469 U.S.
221, 229 (1985). Reasonable suspicion is:
more than a mere hunch, but is satisfied by a likelihood of criminal activity less than probable cause, and
falls considerably short of satisfying a preponderance
of the evidence standard. If an officer possesses a
particularized and objective basis for suspecting the
particular person . . . based on specific and articulable facts, he may conduct a Terry stop.
The parties dispute whether the encounter between Plaintiff and
Defendants began as an investigative Terry stop or instead as a consensual encounter, but this dispute is ultimately inconsequential because, as explained infra, there is a genuine dispute of material fact
as to whether the officers had reasonable suspicion, even by the
point that the encounter escalated to what was alleged to constitute
a Terry stop.
2

17a
Dorsey v. Barber, 517 F.3d 389, 395 (6th Cir. 2008)
(quoting United States v. Arvizu, 534 U.S. 266, 273
(2002)) (citations and internal quotation marks omitted).
Defendants assert that they had reasonable suspicion
to believe that Plaintiff was Davison. However, the undisputed facts do not show that the officers’ suspicion was
reasonable under the totality of the circumstances. The
foundation of Defendants’ suspicion was a physical description of Davison, which described him as a 26-year old
white male with a height between 5’10” and 6’3”, short
dark hair, glasses, and a thin build. But given the broad
swath of the population that matches this physical description and the requirement that reasonable suspicion
be based on a “particularized and objective basis for suspecting [a] particular person,” Dorsey, 517 F.3d at 395
(emphasis added), this physical description of Davison
alone would not have given Defendants a reasonable suspicion that anyone, let alone Plaintiff, was Davison.
Building on their physical description of Davison,
the officers had information about one of Davison’s habits. Defendants knew that “[a]lmost every day between 2:00 pm and 4:00 pm, he bought a soft drink from
the Shell gas station at the intersection of Leonard
Street and Alpine Avenue.” (Def. Br. 3-4.) This information arguably could have provided Defendants
with a reasonable basis to detain and request identification from any individual who matched Davison’s physical description and bought a soft drink consistent with
Davison’s habit. See Family Serv. Ass’n, 783 F.3d at
604 (explaining that officers may request identification if
relevant to purpose of Terry stop); United States v. Orsolini, 300 F.3d 724, 730 (6th Cir. 2002) (“[A]n investigative
detention must be temporary and last no longer than is

18a
necessary to effectuate the purpose of the stop.” (quoting Florida v. Royer, 460 U.S. 491, 500 (1983))). But that
is not what happened. Defendants cite no evidence to
show that Plaintiff bought a soft drink or even entered the
relevant gas station, which was located at the intersection
of Leonard and Alpine Streets. Rather, Defendants say
that they merely found Plaintiff “near the intersection of
Leonard and Alpine” at 2:30 p.m. while Plaintiff was “walking down Leonard Street.” (Def. Br. at 4.) In fact, Plaintiff was several blocks away from the relevant intersection. Thus, Defendants could not have mistaken Plaintiff
for Davison based, in part, on Davison’s habit. Although
Defendants found Plaintiff in the general neighborhood
where they thought Davison might be found, Defendants
also do not cite any cases suggesting that officers may detain everyone in an entire neighborhood who matches the
vague physical description of a criminal suspect. Fourth
Amendment case law has clearly established the contrary.
See Dorsey, 517 F.3d at 395.
Further building on their description of Davison, the
officers had two photographs:

19a
The first of these photographs depicts the silhouette of
a man playing an electric guitar. The man is wearing
sunglasses, his head is tilted downward, and there is insufficient light to discern identifying characteristics.
This photograph adds nothing to the physical description of Davison and therefore did not provide additional
support for the Terry stop.
The second photograph—a 2007 driver’s license photo
—depicts Davison’s face clearly. Obviously, Plaintiff,
whose photograph appears below, is not a match to the
driver’s license photo:

Defendants admit that they “did not know how Mr. Davison looked in 2014,” (R. 74-1 at PageID #610), but they
suspected that he “look[ed] more like the [silhouette]
photo” than the driver’s license photo.
(R. 73 at

20a
PageID #428). Defendants’ theory seems to be that
they could have detained anybody who remotely resembled Davison’s old driver’s license photograph, given
that Davison could have changed his appearance in the
intervening seven years. But whether Plaintiff resembles the photograph is a question of fact. See Ingram,
185 F.3d at 596 (“[A] genuine issue of fact existed as to
whether the officers’ mistake in identifying [the plaintiff ] as [a particular fugitive] was a reasonable one.”);
Thomas v. Noder-Love, 621 F. App’x 825, 830 (6th Cir.
2015) (“[D]eciding whether the man in the Footage
Photo and the man in the Booking Photo looked similar
in appearance . . . raises issues of fact that are only
properly resolvable at trial.”). A jury could reasonably
conclude that Plaintiff bears no resemblance whatsoever to Davison’s driver’s license photograph, in which
case the photograph could not have supported reasonable suspicion for a Terry stop.
Finally, Defendants assert that their reasonable suspicion was cemented when Plaintiff “declined to supply
has last name and denied possessing any identification.”
(Def. Br. 21.) But there is no evidence in the record to
show that Defendants asked Plaintiff for his last name,
so he could not have “declined” to provide it. 3 Moreover, it would not have been suspicious, as a matter of
Plaintiff also argues that Defendants’ suspicion, if any, should
have been dispelled when Plaintiff stated that his name was “James”
because the suspect’s name was not James. But if Defendants reasonably suspected that Plaintiff matched the photo of Davison, Defendants were not required to believe Plaintiff ’s assertions that his
name was James. See Masters, 872 F.2d at 1253. As further explained in this opinion, Plaintiff ’s response to being asked for his
name was largely inconsequential—unless, of course, his answer
had been “Aaron.”
3

21a
law, for Plaintiff to refuse to cooperate with Defendants’
investigation. Family Serv. Ass’n, 783 F.3d at 604 (“Refusing to answer an officer’s questions during an officer’s attempt to conduct a consensual encounter does
not create reasonable suspicion for a Terry stop.”).
Thus, unless Defendants already had reasonable suspicion that Plaintiff was Davison when they approached
him, Plaintiff ’s simple refusal to cooperate was not suspicious and could not provide grounds for a Terry stop.
See id.
Thus, under the totality of the circumstances, the following factors supported Defendants’ suspicion that
Plaintiff was Davison: Plaintiff matched a rather incomplete physical description of Davison that did not include any defining characteristics; Defendants saw Plaintiff walking during the afternoon in a neighborhood near
where Davison was known to buy soft drinks in the afternoon, but Plaintiff had not purchased a soft drink;
and Defendants may have reasonably suspected that
Plaintiff resembled a seven-year-old driver’s license
photograph of Davison—or a photograph that did not
show Davison’s face. The first two factors together could
not have provided a “particularized and objective basis
for suspecting [a] particular person,” because they could
describe any number of people in the neighborhood
where Plaintiff was walking. See Dorsey, 517 F.3d at
395. Thus, under clearly established law, Defendants
needed more; they needed to find someone who resembled the photographs of Davison. Because there is a genuine dispute about whether a reasonable officer could
conclude that Plaintiff resembled the photographs, the
district court erred in granting Defendants’ motion for
summary judgment on the basis of qualified immunity.

22a
In granting Defendants qualified immunity, the district court correctly explained that “ ‘certainty’ is not
‘the touchstone of reasonableness under the Fourth
Amendment’ ” (R. 91 at PageID #1016 (quoting Hill,
401 U.S. at 803-04)) and that “the reasonableness inquiry
includes some ‘latitude for honest mistakes’ . . . in the
difficult task of finding and arresting fugitives.” (Id.
(quoting Maryland v. Garrison, 480 U.S. 79, 87 (1987))).
Indeed, “the ultimate touchstone of the Fourth Amendment is ‘reasonableness.’ ” Brigham City, Utah v. Stuart, 547 U.S. 398, 403 (2006). But this standard does
not become more forgiving as the quality of evidence (or
of police work) decreases. Rather, as the description of
a suspect becomes less reliable—due to the passage of
time or otherwise—an officer’s reliance on that description becomes objectively less reasonable and less likely
to support a warrantless detention, arrest, or search.
When officers mistake a person for a criminal suspect,
the officers’ “subjective good-faith belief ” is irrelevant;
the mistake must be “understandable” and based on
“sufficient probability.” Hill, 401 U.S. at 804; see Illinois v. Gates, 462 U.S. 213, 232 (1983) (explaining that
the Fourth Amendment inquiry requires “the assessment of probabilities in particular factual contexts”).
In support of the district court’s logic, Defendants
explain that their mistake was reasonable because
“[d]espite their best efforts, the officers ‘did not know
how . . . Davison looked in 2014’ because they could
not find a recent image of his face.” (Def. Br. 23.) But
Defendants’ logic is faulty; the old age of a suspect’s
photograph cannot increase its reliability or, in turn, the
chances of finding a match. The less an officer knows
about a suspect’s appearance, the less reasonable it is
for the officer to suspect that any particular person

23a
matches that appearance. See Dorsey, 517 F.3d at 395.
The greater difficulty in accurately identifying anyone
as Davison decreases, not increases, the reasonableness
of any particular suspicion. Under the totality of the
circumstances, the only way for Defendants to have had
reasonable suspicion that Plaintiff was Davison was if
Defendants’ belief that Plaintiff resembled Davison’s
old driver’s license photograph was “understandable” in
light of the other identifying information available to
Defendants at the time. See Hill, 401 U.S. at 804.
This is a question for the jury.
ii. Reasonableness
Search

of

the

Protective

Plaintiff also argues that Detective Allen violated his
Fourth Amendment right to be free from unreasonable
searches when he frisked Plaintiff for weapons and removed Plaintiff ’s wallet from his pocket. 4
For a protective search conducted during a Terry
stop to be reasonable, “the police officer must reasonably suspect that the person stopped is armed and dangerous.” Arizona v. Johnson, 555 U.S. 323, 326-27
(2009). The officer “must be able to point to particular
facts from which he reasonably inferred that the individual was armed and dangerous.” Sibron v. New York,
392 U.S. 40, 64 (1968). Based on such suspicion, “the
officer may conduct a limited search for concealed weapons.” United States v. Strahan, 984 F.2d 155, 158
If Defendants lacked reasonable suspicion to conduct a Terry
stop, clearly established law provides that this frisk was unreasonable in its entirety. Sibron v. New York, 392 U.S. 40, 64 (1968) (“The
police officer is not entitled to seize and search every person whom
he sees on the street or of whom he makes inquiries.”).
4

24a
(6th Cir. 1993). As applicable to this case, “Terry allows only an examination for concealed objects and forbids searching for anything other than weapons.” Id.
(citing Ybarra v. Illinois, 444 U.S. 85, 92-94 (1980)).
“If the protective search goes beyond what is necessary
to determine if the suspect is armed, it is no longer valid
under Terry.” Minnesota v. Dickerson, 508 U.S. 366,
373 (1993).
Plaintiff does not dispute that Defendants could have
reasonably believed he was armed and dangerous, assuming of course that Defendants reasonably believed
that he was Aaron Davison. 5 Rather, Plaintiff argues
that Detective Allen exceeded the scope of a lawful protective search when he removed Plaintiff ’s wallet from
the back pocket of Plaintiff ’s pants.
The Supreme Court has recognized that officers’
training enables them to identify objects with particularity during protective frisks. In Dickerson, for instance, the Supreme Court articulated the so-called
“plain touch” doctrine: “[i]f a police officer lawfully pats
down a suspect’s outer clothing and feels an object
whose contour or mass makes its identity immediately
apparent, there has been no invasion of the suspect’s
privacy beyond that already authorized by the officer’s
search for weapons; if the object is contraband, its warrantless seizure would be justified by the same practical
considerations that inhere in the plain-view context.”
Before the frisk, Plaintiff told Defendants that he was armed
with a pocket knife. Because Plaintiff does not press the issue, the
Court does not analyze whether Plaintiff ’s admission to possessing
a pocket knife, combined with reasonable suspicion that Plaintiff was
Davison, would give rise to reasonable suspicion that Plaintiff was
armed and dangerous.
5

25a
Id. at 375-76. This Court has elaborated on the plain
touch doctrine and the relevance of an officer’s training
to investigatory decisions made during a frisk:
In assessing whether an object’s incriminatory nature is immediately apparent, the court must look to
three factors, none of which is necessary but each of
which is instructive. These factors are: (1) a nexus
between the seized object and the [suspected criminal activity]; (2) whether the intrinsic nature or appearance of the seized object gives probable cause to
believe that it is associated with criminal activity; and
(3) whether the executing officers can at the time of
discovery of the object on the facts then available to
them determine probable cause of the object’s incriminating nature.
United States v. Pacheco, 841 F.3d 384, 395 (6th Cir.
2016) (quoting United States v. Garcia, 496 F.3d 495,
510 (6th Cir. 2007)) (citations and internal quotation
marks omitted).
Applying these principles, removing Plaintiff ’s wallet
was not “necessary to determine if the suspect [was]
armed” and was therefore unreasonable based on clearly
established law. See Dickerson, 508 U.S. at 373. Detective Allen admits that the object in Plaintiff ’s pocket
looked like a wallet, felt like a wallet, and was located
where one would expect to find a wallet. And nothing
related to the circumstances of the investigative stop or
to the crime that Davison was suspected of committing
created a reasonable suspicion that the wallet might be
something other than what it immediately appeared to
be. Detective Allen points to the existence of razor
blades and artfully concealed weapons—weapons “that
are designed to look like wallets but in fact are not”—

26a
but he does not suggest that there was reason to believe
that Plaintiff (or Davison) might have been carrying a
razor blade or an artfully concealed weapon. (Def. Br.
27.) In the context of reasonable suspicion, which requires a “particularized and objective basis” for suspicion “based on specific and articulable facts,” Dorsey,
517 F.3d at 395, the fact that razor blades exist does not
give rise to a reasonable inference that there is a razor
blade in any particular person’s wallet. The same analysis applies to artfully concealed weapons. Indeed, if
an officer’s suspicion that a suspect is armed and dangerous were sufficient to also reasonably suspect that
every object in a suspect’s pocket either contains a razor
blade or is an artfully concealed weapon, then there
would be no practical distinction between a protective
search and a search incident to arrest. Cf. United
States v. Robinson, 414 U.S. 218, 236 (1973) (“Since it is
the fact of custodial arrest which gives rise to the authority to search, it is of no moment that [the officer] did
not indicate any subjective fear of the respondent or
that he did not himself suspect that respondent was
armed.”).
Defendants argue that removing Plaintiff ’s wallet
was reasonable and cite several cases in support of their
assertion, but these cases are easily distinguishable.
In Strahan, 984 F.2d at 158, we concluded that an officer
was justified in reaching into Strahan’s pockets when
the officer reasonably believed that Strahan was armed
because the officer: (1) was familiar with Strahan;
(2) had a reliable tip that Strahan was armed; and (3) felt
a bulge in Strahan’s pocket during the frisk, which could
have been a weapon. In United States v. Brown,
310 F. App’x 776, 781 (6th Cir. 2009), we concluded that

27a
an officer did not violate the Fourth Amendment by taking Brown’s wallet from his pocket when the officer was
alone, it was late at night, and Brown was acting nervous
and made a furtive gesture towards his back pocket as
he tried to leave the scene. In United States v. Muhammad, 604 F.3d 1022, 1026-27 (8th Cir. 2010), the
Eighth Circuit concluded that removing Muhammad’s
wallet was permissible when the officer felt a four-inch
by three-inch hard object in Muhammad’s pocket, the
officer could not tell what the object was, and Muhammad had been detained for his suspected participation in
an armed robbery that had taken place less two hours
earlier. Here, by contrast, Defendants were working
together in broad daylight and did not suspect Plaintiff ’s wallet was a weapon.
Accordingly, the district court erred when it concluded that “[n]othing in Plaintiff ’s allegations supports
the proposition that Allen’s ‘search’ was any broader
than necessary to ensure that Plaintiff did not have access to a weapon.” (See R. 91 at PageID #1018.) Detective Allen’s interest in searching the contents of
Plaintiff ’s pocket to avoid “unnecessary risks in the performance of [his] duties” was minimal given that Detective Allen could not have reasonably suspected that
the wallet was anything other than a wallet. See Terry,
392 U.S. at 23. Under clearly established law, removing Plaintiff ’s wallet during a protective search was unreasonable even if the protective search was reasonable
at its inception. See Dickerson, 508 U.S. at 373.
iii. Stopping Plaintiff ’s Attempt to Flee
Assuming that Defendants had detained Plaintiff
upon reasonable suspicion and that they had properly

28a
identified themselves as police officers, it was not unreasonable for Defendants to attempt to stop Plaintiff ’s
flight. As the Supreme Court has explained:
[U]nprovoked flight is simply not a mere refusal to
cooperate. Flight, by its very nature, is not “going
about one’s business”; in fact, it is just the opposite.
Allowing officers confronted with such flight to stop
the fugitive and investigate further is quite consistent with the [Fourth Amendment].
Wardlow, 528 U.S. at 125. Plaintiff is therefore incorrect to the extent that he suggests that the Fourth
Amendment compelled Defendants to permit him to flee
from his detention, again, assuming that the detention
was lawful. But if a jury determines that Plaintiff reasonably believed he was being mugged rather than being detained by police officers, then extending the detention after Plaintiff attempted to flee was just as unreasonable as detaining Plaintiff in the first instance.
b.

Excessive Force Claim

Plaintiff next asserts that Defendants used excessive
force in their attempt to prevent his flight. An excessive force claim may be analyzed under the Fourth,
Eighth, or Fourteenth Amendment: “the applicable
amendment depends on the plaintiff ’s status at the time
of the incident: a free citizen in the process of being
arrested or seized; a convicted prisoner; or someone in
‘gray area[s]’ around the two.” Coley v. Lucas Cty.,
799 F.3d 530, 537 (6th Cir. 2015) (quoting Burgess v.
Fischer, 735 F.3d 462, 472 (6th Cir. 2013)). Where a
free citizen claims that a government actor used exces-

29a
sive force during the process of an arrest, seizure, or investigatory stop, the applicable analysis is governed by
the Fourth Amendment. Id.
“[T]he right to be free from the excessive use of force
is a clearly established Fourth Amendment right.”
Champion v. Outlook Nashville, Inc., 380 F.3d 893, 902
(6th Cir. 2004) (quoting Neague v. Cynkar, 258 F.3d 504,
507 (6th Cir. 2001)). The Supreme Court has explained
that “[n]ot every push or shove, even if it may later seem
unnecessary in the peace of a judge’s chambers, violates
the Fourth Amendment.” Graham v. Connor, 490 U.S.
386, 396 (1989). Rather, “the question is whether the
officers’ actions [were] ‘objectively reasonable’ in light
of the facts and circumstances confronting them, without regard to their underlying intent or motivation.”
Id. at 397. “The calculus of reasonableness must embody allowance for the fact that police officers are often
forced to make split-second judgments—in circumstances
that are tense, uncertain, and rapidly evolving—about
the amount of force that is necessary in a particular situation.” Id. at 396. Therefore, to determine whether
the use of force in a particular situation was reasonable,
this Court must look to the totality of the circumstances.
See id.; Dickerson v. McClellan, 101 F.3d 1151, 1161 (6th
Cir. 1996) (citing Tennessee v. Garner, 471 U.S. 1, 8-9
(1985)). In doing so, the court must assume “the perspective of a reasonable officer on the scene, rather than
with the 20/20 vision of hindsight.” Graham, 490 U.S. at
396. The analysis of whether an officer’s use of force was
reasonable is guided by the following three factors: (1)
the severity of the crime at issue; (2) whether the suspect posed an immediate threat to the safety of the officers or others; and (3) whether the suspect was actively resisting arrest or attempting to evade arrest by

30a
flight. Sigley v. City of Parma Heights, 437 F.3d 527,
534 (6th Cir. 2006).
Excessive force cases typically require this Court
to “analyze the events in segments.” Phelps v. Coy,
286 F.3d 295, 301 (6th Cir. 2002) (citing Dickerson,
101 F.3d at 1161-62). In Phelps, for instance, this
Court analyzed three separate segments: first, the officer arrested Phelps and placed him in handcuffs; second, the officer took Phelps to the police station for
booking; and third, the officer tackled Phelps to the
ground, sat on top of him, and beat him in response to a
gesture by Phelps that the officer claimed he perceived
to be threatening. See id. at 301-02.
Plaintiff alleges that Defendants used excessive force
in two distinct segments of their encounter. First,
Plaintiff alleges that Detective Allen used excessive
force by continuing to beat Plaintiff even after he was
subdued. Any level of violent force that an officer uses
against a subdued detainee is excessive as a matter of
clearly established law. See Champion, 380 F.3d at
902 (citing cases for the proposition that this Court has
“consistently held that various types of force applied after the subduing of a suspect are unreasonable and a violation of a clearly established right”); Adams v. Metiva,
31 F.3d 375, 386 (6th Cir. 1994) (holding and continuing
to spray mace in the face of an incapacitated arrestee, if
proven, would be unreasonable as a matter of law); Darnell v. Caver, No. 97-5297, 1998 WL 416000, at *3 (6th
Cir. July 7, 1998) (unpublished) (after suspect thrown to
ground, unreasonable for officer to lift suspect’s head
and let it drop to pavement). But Plaintiff ’s allegation
has no merit—there is no evidence to support it. Plaintiff suggests, without support, that he was subdued the

31a
moment that he released his bite. (See, e.g., Pl. Br. 45
(“[A] reasonable jury could conclude that Allen beat
[Plaintiff ] after [Plaintiff ] released his bite.”)) But Detective Allen testified during Plaintiff ’s criminal trial
that he “couldn’t gain control of [Plaintiff ]” and that he
“felt like [he] was losing the fight” until a nearby pedestrian provided assistance. (R. 73 at PageID #435.)
Detective Allen stated that the incident ended only after
the pedestrian “control[ed] [Plaintiff ’s] legs, at [which]
point we were able to put the handcuffs on him.” (Id.)
The pedestrian also testified that Defendants needed his
assistance to subdue Plaintiff. (Id. at PageID #448.)
Plaintiff presents no evidence to show that he stopped
resisting when he stopped biting, and he fails to refute
extensive testimony indicating that three people were
struggling to subdue him even after he released his
bite. 6 Accordingly, Plaintiff has failed to show that Detective Allen used excessive force after Plaintiff was
subdued.
Second, Plaintiff alleges that Defendants used excessive force in subduing him. This Court agrees, especially because a jury could find that Defendants failed to
identify themselves as police officers. 7 It is impossible

Plaintiff states in his reply brief that he disputes whether the pedestrian helped Defendants subdue him. However, Plaintiff does
not explain his dispute, nor does he cite any evidence that tends to
show that Defendants continued to use force after Plaintiff was subdued.
7
Detective Allen was primarily responsible for the use of force,
but Officer Brownback participated in the Terry stop, was present
throughout the encounter, did not intervene once the encounter became violent, and at some point joined Detective Allen in subduing
Plaintiff. Without resolving the parties’ factual disputes, the Court
6

32a
to resist an arrest (or detention) without knowing that
an arrest (or detention) is being attempted. Metiva,
31 F.3d at 385 (“[W]hether plaintiff was actively resisting arrest or attempting to evade arrest is contested as
plaintiff alleges he was never told he was under arrest
or why he was being further detained after submitting
to two pat-down searches.”). If a jury were to find that
Defendants failed to properly identify themselves, then
Plaintiff ’s flight did not constitute “actively resisting arrest or attempting to evade arrest by flight” as a matter
of law. Id. Indeed, Plaintiff says that he ran away
only after asking whether Defendants were mugging
him. If a jury were to credit Plaintiff ’s testimony, then
neither Defendant is entitled to qualified immunity because any reasonable officer would have known, based
on clearly established law, that applying force—tackling
Plaintiff to the ground, holding him down, choking him,
and beating him into submission—was unreasonable under the circumstances. 8 See id.; Atkins v. Twp. of Flint,

cannot conclude that Officer Brownback is entitled to qualified immunity for any portion of the encounter.
8
Even if Defendants reasonably suspected that Plaintiff was Davison, Davison’s suspected crime was not one for which it might have
been reasonable for Detective Allen to tackle Plaintiff to the ground
without explanation. Davison’s suspected crime was home invasion, which the evidence indicates was a non-violent crime, if moderately severe. The degree of home invasion Davison allegedly committed is unclear. The lowest level of home invasion is a felony punishable by imprisonment for up to five years, a fine of up to $2,000,
or both. MCL § 750.110a(7). This degree of home invasion does
not necessarily require a perpetrator to commit an act of violence or
to interact with others. Id. at § 750.110a(3). Thus, viewing the evidence in the light most favorable to Plaintiff, Defendants had no reason to think that Plaintiff was a particularly dangerous criminal and

33a
94 F. App’x 342, 349 (6th Cir. 2004) (concluding that “a
reasonable officer would ordinarily inform a suspect
. . . that he was being arrested” for a low-level crime,
especially when “there was no reason not to tell him he
was under arrest”); Griffith v. Coburn, 473 F.3d 650, 657
(6th Cir. 2007).
But regardless of whether the force was justified at
its inception, Detective Allen’s use of a chokehold, if
proven, would be excessive under clearly established
law. The use of a chokehold constitutes deadly force.
See Coley, 799 F.3d at 540. When a suspect resists arrest by “wrestling [himself ] free from officers and running away,” officers may reasonably use force, but such
conduct “does not justify deadly force, especially when
the struggle has concluded and the suspect is in flight.”
Bouggess v. Mattingly, 482 F.3d 886, 891 (6th Cir. 2007).
Thus, “[t]he use of a chokehold on an unresisting—and
even an initially resistant—detainee” constitutes excessive force. Coley, 799 F.3d at 540. 9 Therefore, any officer should have known based on clearly established law
that using a chokehold when Plaintiff was attempting to
run away was objectively unreasonable. Detective Allen argues that “the Constitution does not prohibit officers from using this technique [a chokehold] to restrain a
suspect just seconds after the suspect attempts to punch
an officer and to flee.” (Def. Br. 32.) Although Bouggess addressed an officer’s use of his firearm, rather
no reason to tackle him to the ground without announcing themselves.
9
Although Coley was published after the events giving rise to this
case, this Court recognized in Coley that prior cases made it “abundantly clear” that “[c]hokeholds are objectively unreasonable where
. . . there is no danger to others.” Coley, 799 F.3d at 541.

34a
than a chokehold, the principle from Bouggess applies to
the instant case. Bouggess clearly established that using deadly force, when the struggle has concluded and a
suspect is fleeing, is excessive and unconstitutional.
See Bouggess, 482 F.3d at 891. The district court
therefore erred by granting Detective Allen qualified
immunity as to his use of force.
Therefore, neither Defendant is entitled to qualified
immunity on Plaintiff ’s excessive force claims.
C.

The District Court Correctly Held that Plaintiff ’s
Claims Against Detective Allen are Bivens Claims
Rather than § 1983 Claims
1.

Standard of Review

This Court reviews de novo the purely legal question
of whether a cause of action arises under § 1983 or instead under the implied right of action recognized in
Bivens, 403 U.S. 388. See United States v. Graham,
484 F.3d 413, 416 (6th Cir. 2007); Rodgers v. Banks,
344 F.3d 587, 593 (6th Cir. 2003).
2.

Analysis

As explained below, the Court concludes that the district court correctly held that Plaintiff ’s claims against
Detective Allen are Bivens claims rather than § 1983
claims.
a. Relevant Legal Principles

To bring a claim under § 1983, the plaintiff must allege: “1) the defendant acted under color of state law;
and 2) the defendant’s conduct deprived the plaintiff of
rights secured under federal law.” Fritz v. Charter
Twp. of Comstock, 592 F.3d 718, 722 (6th Cir. 2010) (citing Bloch v. Ribar, 156 F.3d 673, 677 (6th Cir. 1998)).

35a
“The ultimate issue in determining whether a party is
subject to liability under 42 U.S.C. § 1983 is whether the
alleged infringement of federal rights is ‘fairly attributable to the state.’ ” Crowder v. Conlan, 740 F.2d 447,
449 (6th Cir. 1984) (quoting Lugar v. Edmondson Oil
Co., 457 U.S. 922, 937 (1982)). The question of fair attribution involves a two-step inquiry: “[f ]irst, the deprivation must be caused by the exercise of some right or
privilege created by the State or by a rule of conduct
imposed by the [S]tate or by a person for whom the
State is responsible.” Lugar, 457 U.S. at 937. In addition, “the party charged with the deprivation must be
a person who may fairly be said to be a state actor.
This may be because he is a state official, because he has
acted together with or has obtained significant aid from
state officials, or because his conduct is otherwise
chargeable to the State.” Id.
A defendant’s actions performed pursuant to a
“ ‘mixed’ federal and state program may . . . be actions ‘under color of state law.’ ” Rowe v. Tennessee,
609 F.2d 259, 266 (6th Cir. 1979). The “evaluation of
whether particular conduct constitutes action taken under the color of state [or instead federal] law, must focus
on the actual nature and character of that action.”
Schultz v. Wellman, 717 F.2d 301, 304 (6th Cir. 1983).
In Schultz, for instance, this Court explained that the
decision by a defendant officer in the Kentucky Air National Guard to terminate a lower-level officer was made
under color of state law, not federal law, because “[o]fficers in the National Guard . . . are officers of the
state militia until called into active federal duty,” and because terminations from the National Guard “are ordered
by the state Adjutant General, a state officer, and must be
approved by the Governor of the state.” Id. at 305.

36a
b. Application to the Matter at Hand

Plaintiff ’s claims against Detective Allen may not be
brought under § 1983 because Detective Allen’s conduct
is fairly attributable only to the United States and not
to the State of Michigan. 10 Although Detective Allen
was a detective with the Grand Rapids Police and was
therefore employed by the state, Detective Allen was
working full time with an FBI task force at the time of
the incident at issue. Plaintiff has not alleged or
demonstrated that the state was involved in authorizing
or administering the task force; instead, it appears that
the FBI managed the operation with the benefit of state
resources. Detective Allen’s “official character” at the
time of the incident was therefore “such as to lend the
weight of the [United States] to his decisions.” See Lugar, 457 U.S. at 937. As a deputized federal agent, Detective Allen carried federal authority and acted under
color of that authority rather than under any state authority he may have had as a Grand Rapids Police detective. See Guerrero v. Scarazzini, 274 F. App’x 11, 12
n.1 (2d Cir. 2008) (“[B]ecause Scarazzini and McAllister
were federally deputized for their Task Force work, this
claim was properly brought . . . as a Bivens action.”); Majors v. City of Clarksville, 113 F. App’x 659,
659-60 (6th Cir. 2004) (explaining that a § 1983 claim
brought against police officers serving with a DEA task
force was “in reality a Bivens claim under the Fourteenth Amendment”).
Detective Allen’s potential liability is unchanged by whether
Plaintiff ’s claims properly arise under Bivens or § 1983. See Butz
v. Economou, 438 U.S. 478, 500-04 (explaining that liability for an
actionable claim under Bivens is indistinguishable from an analogous claim under § 1983).
10

37a
Plaintiff argues that Detective Allen acted under
color of state law because the task force was enforcing a
state warrant for Davison’s arrest at the time the events
giving rise to this case took place. But Plaintiff fails to
explain why the “nature and character” of a task force
should change based on whether the task force chooses
to pursue a state fugitive or a federal fugitive. Schultz,
717 F.2d at 304. Plaintiff points out that “Davison had
committed no federal crime” and therefore “the officers
had no authority independent of Michigan state law to
arrest Davison.” (Pl. Br. 61.) However, the nature
and character of a cooperative federal-state program is
determined by the source and implementation of authority for the program, not for the particular work that the
agency chooses, in the exercise of its authority, to perform on a given day. Cf. id. at 305 (“That an agency of
the state chooses to utilize federal substantive and procedural rules in the exercise of its state law authority
does not transform the state law character of its actions.”). Thus, as long as the task force’s decision to
apprehend Davison was made by virtue of an exercise of
federal authority, which Plaintiff does not contest, Detective Allen remained a federal agent in the pursuit of
a state fugitive. Therefore, the district court correctly
concluded that Plaintiff ’s claims against Detective Allen
are Bivens claims and not § 1983 claims.

38a
CONCLUSION

For the reasons explained above, the Court REVERSES the district court’s findings that (1) the FTCA

judgment bar precludes Plaintiff ’s remaining claims and
that (2) Defendants are entitled to qualified immunity,
VACATES the district court’s judgment in favor of Defendants, and REMANDS for proceedings consistent
with this opinion.

39a

DISSENT

ROGERS, Circuit Judge, dissenting. The district
court’s dismissal of King’s FTCA claims against the
United States based on the presence of state-law governmental immunity constitutes a “judgment” under
28 U.S.C. § 2676, such that the FTCA’s judgment bar
precludes King’s claims against Allen and Brownback.
The FTCA’s judgment bar provides:
The judgment in an action under section 1346(b) of
this title shall constitute a complete bar to any action
by the claimant, by reason of the same subject matter, against the employee of the government whose
act or omission gave rise to the claim.
28 U.S.C. § 2676. King had sued the United States under 28 U.S.C. § 1346(b) based on the allegedly tortious
acts of Todd Allen and Douglas Brownback. The district court dismissed King’s FTCA claims on state-law
grounds. King did not challenge the dismissal of his
FTCA claims on appeal, so the decision was final for the
purposes of the FTCA’s judgment bar. See Serra v.
Pichardo, 786 F.2d 237, 239, 242 (6th Cir. 1986). Moreover, King does not dispute that the additional claims
against Allen and Brownback arise from the same “subject matter” as his FTCA claims. A judgment for or
against the United States on an FTCA claim bars claims
based on the same subject matter, “even when ‘the
claims [a]re tried together in the same suit and [ ] the
judgments [ ] entered simultaneously.’ ” Harris v.
United States, 422 F.3d 322, 334 (6th Cir. 2005) (quoting
Serra, 786 F.2d at 241). The district court’s order in

40a
favor of the United States on King’s FTCA claims accordingly triggers the judgment bar and requires the
dismissal of King’s additional claims against Allen and
Brownback.
Although the district court’s order established that
the district court lacked subject matter jurisdiction over
the FTCA claims, this is because merits determinations
under the FTCA are jurisdictional in that they implicate
the sovereign immunity of the United States. The dismissal still amounted to a “judgment” under 28 U.S.C.
§ 2676. Indeed, the district court dismissed King’s
FTCA claims against the United States based on determinations that are legally indistinguishable from determinations that the Supreme Court has identified, albeit
in dictum, as triggering the judgment bar. In Simmons v. Himmelreich, 136 S. Ct. 1843, 1849 (2016), the
Court explained that the judgment bar applies when
FTCA claims are dismissed “because the [defendants]
were not negligent, because [the plaintiff ] was not harmed,
or because [the plaintiff ] simply failed to prove his
claim.” Such dismissals are under § 1346(b), which lifts
the sovereign immunity of the United States by granting jurisdiction over a cause of action for money damages against the government in certain limited circumstances. 1 According to the Court, “it would make little

1

28 U.S.C. § 1346(b) provides:
Subject to the provisions of chapter 171 of this title, the district
courts . . . shall have exclusive jurisdiction of civil actions
on claims against the United States, for money damages, accruing on and after January 1, 1945, for injury or loss of property, or personal injury or death caused by the negligent or
wrongful act or omission of any employee of the Government

41a
sense to give [the plaintiff] a second bite at the moneydamages apple by allowing suit against the employees”
to proceed in such a case. Id. The hypothetical dismissals “would have given [the plaintiff ] a fair chance to
recover damages” for the alleged constitutional violations, such that applying the judgment bar to preclude
litigation over claims arising from the same subject matter would be appropriate. Id.
This is precisely what happened in King’s lawsuit.
The district court dismissed King’s FTCA claims
against the United States because it determined that
Michigan governmental immunity protected Allen and
Brownback from liability for their alleged torts. According to the court, “the parties’ undisputed facts support the finding that [Allen and Brownback’s] actions
were not undertaken with the malice required under
Michigan law.” The district court’s dismissal of King’s
FTCA claims was based on an assessment of their merits under Michigan law. Such a dismissal is warranted
by the limits set out in § 1346(b), like those in the Simmons dictum. Under § 1346(b), the FTCA creates a
cause of action against the United States “for injury or
loss of property, or personal injury or death,” only
where “the United States, if a private person, would be
liable to the claimant in accordance with the law of the
place where the act or omission occurred.”
It is true that a merits-based dismissal under the limits of § 1346(b) is jurisdictional; the terms of § 1346(b)
explicitly grant jurisdiction to the district courts for
while acting within the scope of his office or employment, under circumstances where the United States, if a private person,
would be liable to the claimant in accordance with the law of
the place where the act or omission occurred.

42a
such claims against the government. But that cannot
be sufficient to preclude application of the FTCA judgment bar because that would effectively nullify the judgment bar with respect to cases where the FTCA judgment was in favor of the government. Every case that
determines that the elements of the cause of action are
not met is at the same time a determination that the government’s immunity is not waived and that there is accordingly no jurisdiction. This is true even of a judgment entered after trial. See, e.g., Harris, 422 F.3d at
324-25; Serra, 786 F.2d at 241-42. But as the Supreme
Court reasoned in Simmons, such cases are subject to
the FTCA judgment bar. See Simmons, 136 S. Ct. at
1849.
The actual holding in Simmons was that the FTCA’s
judgment bar does not apply when a judgment is rendered for or against the United States based on one of
the FTCA’s “Exceptions” set out in 28 U.S.C. § 2680,
such as the discretionary function exception. Id. at
1847-48. The Court relied upon the “plain text” of the
FTCA for that conclusion. Id. The plain text provision dictates that the judgment bar does not apply to
cases excepted under 28 U.S.C. § 2680. 2 But the plain
2

The Supreme Court determined:
The “Exceptions” section of the FTCA reads: “[T]he provisions
of this chapter”—Chapter 171—“shall not apply to . . . [a]ny
claim based upon . . . the exercise or performance . . . [of ]
a discretionary function or duty.” § 2680(a). The judgment bar
is a provision of Chapter 171; the plain text of the “Exceptions”
section therefore dictates that it does “not apply” to cases that,
like Himmelreich’s first suit, are based on the performance of a
discretionary function.

136 S. Ct. at 1847-48.

43a
text applied in Simmons by its terms does not apply to
dismissals based on the limits of § 1346(b), such as the
dismissal in this case and the dismissals explicitly distinguished in the Court’s dictum. See id.
Our decision in Himmelreich v. Fed. Bureau of Prisons, 766 F.3d 576 (6th Cir. 2014), does not require holding that dismissals under § 1346(b) preclude application
of the judgment bar. That decision was the very court
of appeals decision affirmed on different grounds in
Simmons. In Himmelreich, we determined that “[a]
dismissal for lack of subject-matter jurisdiction does not
trigger the § 2676 judgment bar,” because “in the absence of jurisdiction, the court lacks the power to enter
judgment.” 766 F.3d at 579. In its review of our Himmelreich decision, the Supreme Court in Simmons
affirmed on narrower grounds, and in dictum reasoned
in a way that logically requires application of the judgment bar in this case. See Simmons, 136 S. Ct. at 1849.
We can hardly be bound by a rationale that the Supreme
Court rejected on review of the very case in which we
set it forth, in favor of a more limited rationale (the plain
text of § 2680) that flatly does not apply in the case before us.
It could be argued that the Supreme Court’s language regarding § 1346(b) dismissals is dictum, whereas
our previous decision in that very case—more broadly
reasoning that neither § 2680 dismissals nor § 1346(b)
dismissals implicate the judgment bar—is holding, and
thus still binding on subsequent panels in the Sixth Circuit. Such an argument is anomalous, however, and at
bottom inconsistent with the theory of stare decisis.
“Dicta” encompasses elements of an opinion that are not
necessary for the resolution of the case. To discern the

44a
difference between holding and dictum, we cannot simply
rely on what a given decision purports to hold. Rather,
we determine whether the purported holding was actually necessary for the resolution of the case. A subsequent decision issued by a reviewing court in that same
case may inform whether the purported holding of the
lower court was in fact necessary. When a lower court
rules on a particular theory and the reviewing court affirms on narrower grounds, the affirmance can indicate
that the broader portion of the lower court’s theory was
unnecessary and therefore dictum—even if the lower
court did not recognize it as such at the time of the decision.
The litigation in Simmons illustrates the point.
When we decided Himmelreich, we purported to hold
that any dismissal of an FTCA claim for lack of subject
matter jurisdiction—which would presumably include
dismissals under both § 1346(b) and § 2680—would not
trigger the judgment bar. See 766 F.3d at 579. On appeal, the Supreme Court determined that the case could
be resolved on narrower grounds and affirmed on a theory that precluded the judgment bar from applying to
§ 2680 dismissals (the type of dismissal before it), while
permitting in dictum the application of the judgment
bar to § 1346(b) dismissals. See Simmons, 136 S. Ct. at
1849. Once the Supreme Court made the final decision
in the Himmelreich litigation in Simmons, the analysis
in the court of appeals decision, to the extent that it encompassed § 1346(b) dismissals, was effectively rendered dictum, if it was not already dictum. It was no
longer necessary for the ultimate resolution of the case,
since the dismissal of the FTCA claim in Himmelreich
was based on § 2680 and not § 1346(b).

45a
The Supreme Court, in other words, took away from
the Sixth Circuit opinion any relevance that its
§ 1346(b)-related analysis may have had to the resolution of the case before it, rendering it the equivalent of
dictum with respect to subsequent cases. The Supreme
Court did so, moreover, before the Himmelreich litigation was final.
This leaves us with Sixth Circuit dictum that precludes the application of the judgment bar to § 1346(b)
dismissals, and well-considered subsequent Supreme
Court dictum that permits the application of the judgment bar to § 1346(b) dismissals. The Supreme Court
dictum is far more compelling than our previous inconsistent dictum, and should be followed.
Accordingly, King’s claims against Allen and Brownback, as sympathetic as they are, are precluded by the
FTCA judgment bar.

46a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION

Case No. 1:16-cv-343
JAMES KING, PLAINTIFF
v.
UNITED STATES OF AMERICA, ET AL., DEFENDANTS
Filed: Aug. 24, 2017
OPINION AND ORDER

Hon. JANET T. NEFF
Plaintiff James King filed this civil rights and Federal Tort Claims Act (FTCA) action against Defendants,
seeking money damages for a July 18, 2014 incident.
The matter is before the Court on Defendants’ motions
to dismiss (ECF Nos. 71 & 77). Having considered the
parties’ submissions, the Court concludes that oral argument is unnecessary to resolve the issues presented.
See W.D. Mich. LCivR 7.2(d). For the reasons that follow, the Court grants Defendants’ motions.
I.

BACKGROUND

Many of the facts surrounding the July 18, 2014 incident giving rise to this case are in dispute. However, for
purposes of this motion only, Defendants take Plaintiff ’s
factual allegations as true (ECF No. 72 at PageID.357,

47a
408, 362; ECF No. 78 at PageID.710; ECF No. 81 at
PageID.838-839).
To that end, the parties filed a
“Joint Statement of Facts” (JSF) (ECF No. 79), which,
as the Federal Defendants indicate (ECF No. 90 at
PageID.946, n.1), is a nearly verbatim recitation of the
factual allegations in Plaintiff ’s Amended Complaint
(ECF No. 30). The Court relies on their Joint Statement of Facts for resolution of these motions unless otherwise indicated.
Plaintiff is a 23-year-old who came to Grand Rapids,
Michigan from Alpena, Michigan to study computer science at Grand Valley State University (JSF ¶ 1). During the summer of 2014, Plaintiff worked two jobs, one
installing DSL cable for Moss Telecommunications and
the other working for the Geek Group, a local science
education non-profit (id. ¶ 2). On Friday, July 18, 2014,
Plaintiff had worked at Moss Telecommunications in the
morning and had lunch at home (id. ¶ 4). After lunch,
he left to walk to his next job at the Geek Group (id.).
As Plaintiff was walking down Leonard Street, he came
upon two men leaning against a black SUV near Tamarack Avenue (id. ¶¶ 3, 5). One of the men was Todd Allen, a Grand Rapids police detective (id. ¶ 6). The other
was Douglas Brownback, an agent with the Federal Bureau of Investigation (FBI) (id. ¶ 7). Neither Allen nor
Brownback were in uniform; rather, they were wearing
plain clothes and baseball hats (id. ¶ 8). Allen was wearing jeans and sunglasses (id.). Allen and Brownback
were both wearing lanyards with badges (id. ¶ 17).
Unbeknownst to Plaintiff, Allen and Brownback were
members of a fugitive task force operating in West
Michigan (JSF ¶ 9). They were looking for a fugitive
named Aaron Davison (id. ¶ 10). Davison was wanted

48a
for home invasion and had been seen in the area the previous day (id. ¶ 11). Allen and Brownback knew that
Davison was a 26-year-old white male with glasses and
that he was between 5’10” and 6’3” tall (id. ¶ 12). Allen
and Brownback had a seven-year-old driver’s license
photo of Davison and a more recent Facebook photo,
where Davison’s face was not visible (id. ¶ 13).
Allen and Brownback did not find Davison on July 18,
2014, but they did find Plaintiff (JSF ¶ 14). Allen and
Brownback determined that Plaintiff, a 21-year-old
white male with glasses between 5’10” and 6’3” tall,
matched Davison’s description (JSF ¶¶ 15-16; Amended
Compl. ¶ 24). Allen asked Plaintiff who he was, and
Plaintiff simply replied, “James” (JSF ¶¶ 18-19). Allen
asked Plaintiff for identification, and Plaintiff said that
he did not have any (id. ¶¶ 20-21). One of the men patted Plaintiff ’s pants (id. ¶ 22). Allen and Brownback
then told Plaintiff to get against the unmarked SUV and
put his hands behind his head (id. ¶ 23). Plaintiff initially complied (id. ¶ 24).
Allen then removed Plaintiff ’s wallet (JSF ¶ 25). At
that point, Plaintiff asked, “Are you mugging me?” (id.
¶ 26). And Plaintiff attempted to run (id. ¶ 27). However, Plaintiff was tackled to the ground (id. ¶ 28).
Plaintiff yelled for help, begging for passersby to call
the police (id. ¶ 29). Plaintiff bit Allen in the arm that
was around Plaintiff ’s neck (id. ¶ 30). Allen then
started punching Plaintiff in the head and face “as hard
as I could, as fast as I could, and as many times as I
could” (id. ¶ 31). Plaintiff continued screaming for help
and for someone to call the police (id. ¶ 32). Several bystanders called the police, and uniformed officers eventually arrived (id. ¶¶ 33-34).

49a
One of the bystanders took video on her phone (JSF
¶ 35). The video does not show the struggle, but it does
contain bystander statements (id.). Among the uniformed officers who arrived on the scene was Grand
Rapids Police Officer Connie Morris (id. ¶ 36). Morris
ordered several bystanders to delete any video of the
event (id. ¶ 37). No video of the actual struggle between Allen, Brownback and Plaintiff was ever discovered (id. ¶ 38).
Plaintiff was transported from the scene to the emergency room, where he was given a CT scan (JSF ¶ 39).
Eventually, the police realized Plaintiff was not Davison,
the sought-after fugitive (id. ¶ 40). Police took Plaintiff from the hospital to the Kent County Jail and booked
him on charges relating to the incident: assault with
intent to do great bodily harm, aggravated assault of a
police officer, and resisting arrest (id. ¶ 41; Amended
Compl. ¶ 62). Plaintiff spent the weekend in jail and
was only allowed to leave his cell for meals (JSF ¶ 42).
Plaintiff was released on bond the following Monday, after his parents posted bail (id. ¶ 43). Upon his release,
Plaintiff visited another hospital for further examination (id. ¶ 44). By that time, much of the swelling had
gone down, but the whites of his eyes had turned almost
entirely black and red (id. ¶ 45). The prosecutor proceeded with the charges against Plaintiff (id. ¶ 46).
Following a jury trial, Plaintiff was acquitted of all
charges (id. ¶ 47).
On April 4, 2016, Plaintiff commenced the instant action against Defendants Allen, Brownback, Morris and
the United States. Plaintiff filed an Amended Complaint
on August 18, 2016, alleging the following four claims:

50a
I.

Violation of Rights Secured by the Fourth
Amendment (42 U.S.C. § 1983—Defendants
Brownback & Allen)

II.

Violation of Rights Secured by the Fourth
Amendment (Bivens—Defendants Brownback
& Allen)

III. Violation of Rights Secured by the Fourth
Amendment (42 U.S.C. § 1983—Defendant
Morris)
IV.

Federal Tort Claims Act (Defendant United
States of America)

(ECF No. 30).
Following a Pre-Motion Conference on Defendants’
proposed dispositive motions, the Court issued a briefing schedule (ECF No. 50). On January 17, 2017, Defendant Morris filed a Motion to Dismiss (ECF No. 77),
to which Plaintiff filed a Response (ECF No. 80) and Defendant Morris filed a Reply (ECF No. 81). On January 17, 2017, Defendants Allen, Brownback and the
United States (collectively, “the Federal Defendants”)
also filed a “Motion to Dismiss, or, in the Alternative, for
Summary Judgment” (ECF No. 71), to which Plaintiff
filed a Response (ECF No. 74). The Federal Defendants filed a Reply on February 6, 2017 (ECF No. 90).
II.
A.

ANALYSIS

Motion Standards

Defendants move to dismiss this case under Federal
Rules of Civil Procedure 12(b)(1) and (b)(6), although
the Federal Defendants (ECF No. 72 at PageID.368)
and Defendant Morris (ECF No. 78 at PageID.715) alternatively request summary judgment under Rule 56,

51a
to the extent the Court deems it necessary to review
their arguments under Rule 56.
Federal Rule of Civil Procedure 12(b)(1) permits dismissal for a lack of subject-matter jurisdiction. FED.
R. CIV. P. 12(b)(1). “When the defendant challenges
subject matter jurisdiction through a motion to dismiss,
the plaintiff bears the burden of establishing jurisdiction.” Angel v. Kentucky, 314 F.3d 262, 264 (6th Cir.
2002) (quoting Hedgepeth v. Tennessee, 215 F.3d 608,
611 (6th Cir. 2000)). See also Moir v. Greater Cleveland Regional Transit Auth., 895 F.2d 266, 269 (6th Cir.
1990).
A Rule 12(b)(1) motion for lack of subject matter jurisdiction can challenge the sufficiency of the pleading
itself (facial attack) or the factual existence of subject
matter jurisdiction (factual attack). Cartwright v. Garner, 751 F.3d 752, 759 (6th Cir. 2014) (citing United
States v. Ritchie, 15 F.3d 592, 598 (6th Cir. 1994)). A
facial attack goes to the question of whether the plaintiff
has alleged a basis for subject matter jurisdiction, and
the court takes the allegations of the complaint as true
for purposes of Rule 12(b)(1) analysis. Id. A factual
attack challenges the factual existence of subject matter
jurisdiction. Id. In the case of a factual attack, a court
has broad discretion with respect to what evidence to
consider in deciding whether subject matter jurisdiction
exists, including evidence outside of the pleadings, and
has the power to weigh the evidence and determine the
effect of that evidence on the court’s authority to hear
the case. Id. at 759-60. See also Adkisson v. Jacobs
Eng’g Grp., Inc., 790 F.3d 641, 647 (6th Cir. 2015) (describing the court’s wide discretion to consider material

52a
outside the complaint in assessing the validity of its jurisdiction); Nichols v. Muskingum Coll., 318 F.3d 674,
677 (6th Cir. 2003) (same); United States v. A.D. Roe Co.,
Inc., 186 F.3d 717, 721-22 (6th Cir. 1999) (same); Ohio
Nat’l Life Ins. Co. v. U.S., 922 F.2d 320, 325 (6th Cir.
1990) (same).
Federal Rule of Civil Procedure 12(b)(6) authorizes a
court to dismiss a complaint if it “fail[s] to state a claim
upon which relief can be granted[.]” FED. R. CIV. P.
12(b)(6). In deciding a motion to dismiss for failure to
state a claim, the court must construe the complaint in
the light most favorable to the plaintiff and accept all
well-pleaded factual allegations in the complaint as true.
Thompson v. Bank of Am., N.A., 773 F.3d 741, 750
(6th Cir. 2014). To survive a motion to dismiss, the
complaint must present “enough facts to state a claim to
relief that is plausible on its face.” Bell Atlantic Corp.
v. Twombly, 550 U.S. 544, 557, 570 (2007). “[T]he tenet
that a court must accept as true all of the allegations
contained in a complaint is inapplicable to legal conclusions. Threadbare recitals of the elements of a cause
of action, supported by mere conclusory statements, do
not suffice.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009).
See also Commercial Money Ctr., Inc. v. Ill. Union Ins.
Co., 508 F.3d 327, 335-36 (6th Cir. 2007) (“When a document is referred to in the pleadings and is integral to the
claims, it may be considered without converting a motion to dismiss into one for summary judgment.”).
Under Federal Rule of Civil Procedure 56, summary
judgment is proper “if the movant shows that there is no
genuine dispute as to any material fact and the movant
is entitled to judgment as a matter of law.” FED. R. CIV.
P. 56(a). The court must consider the evidence and all

53a
reasonable inferences in favor of the nonmoving party.
Burgess v. Fischer, 735 F.3d 462, 471 (6th Cir. 2013);
U.S. S.E.C. v. Sierra Brokerage Servs., Inc., 712 F.3d
321, 327 (6th Cir. 2013). The moving party has the initial burden of showing the absence of a genuine issue
of material fact. Jakubowski v. Christ Hosp., Inc.,
627 F.3d 195, 200 (6th Cir. 2010). The burden then
“shifts to the nonmoving party, who must present some
‘specific facts showing that there is a genuine issue for
trial.’ ” Id. (quoting Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 248 (1986)).
The function of the district court “is not to weigh the
evidence and determine the truth of the matter but to
determine whether there is a genuine issue for trial.”
Resolution Trust Corp. v. Myers, 9 F.3d 1548 (6th Cir.
1993) (citing Anderson, 477 U.S. at 249). “A dispute is
genuine if there is evidence ‘upon which a reasonable
jury could return a verdict in favor of the non-moving
party.’ A factual dispute is material only if it could affect the outcome of the suit under the governing law.”
Smith v. Erie Cty. Sheriff ’s Dep’t, 603 F. App’x 414, 418
(6th Cir. 2015) (quoting Tysinger v. Police Dep’t of City
of Zanesville, 463 F.3d 569, 572 (6th Cir. 2006)). “The
ultimate question is ‘whether the evidence presents a
sufficient disagreement to require submission to a jury
or whether it is so one-sided that one party must prevail
as a matter of law.’ ” Back v. Nestlé USA, Inc., 694 F.3d
571, 575 (6th Cir. 2012) (quoting Anderson, 477 U.S. at
251-52).

54a
B.
1.

Count I:

Discussion

§ 1983 (Brownback & Allen)

The Federal Defendants argue that Plaintiff cannot
bring his § 1983 claim in Count I against Allen and
Brownback because they were acting under the color of
federal law, in their capacities as federal agents (ECF
No. 72 at PageID.369). Specifically, Defendant Brownback is a Special Agent employed by the FBI and assigned to its Grand Rapids Resident Agency Violent
Crimes/Fugitive Safe Streets Task Force (id.). And
Officer Allen is a federally deputized Special Deputy U.S.
Marshal, also working full time with the Task Force (id.).
The Federal Defendants emphasize that in looking for
Davison, Brownback and Allen acted in an authorized
FBI investigation pursuant to the federal Fugitive
Felon Act, 18 U.S.C. § 1073 (id. at PageID.360-361).
In response, Plaintiff argues that the mere fact that
Allen and Brownback may have been federal agents
does not preclude § 1983 liability; instead, they are still
liable under § 1983 if they acted under color of state law
(ECF No. 74 at PageID.573). Plaintiff argues that Allen and Brownback were acting under color of state law
because the officers were executing “a Michigan warrant for a Michigan fugitive who was wanted for a Michigan crime in Michigan” (id. at PageID.574). Plaintiff
emphasizes that state law, MICH. COMP. LAWS § 764.15d,
authorized Allen and Brownback to serve the state warrant and that the Chief of the Grand Rapids Police Department (GRPD) made the request to look for Davison
(id.). Conversely, Plaintiff argues that although Officer Allen was apparently federally-deputized, he was
employed by the GRPD and wearing his GRPD neck
badge at the time of the incident (id.). Last, Plaintiff

55a
argues that Agent Brownback was acting in concert
with Officer Allen, and a federal agent who acts in concert with a state actor is liable under § 1983 (id. at
PageID.575).
In reply, the Federal Defendants assert that Plaintiff
has not identified a single case where a court held
that § 1983 applied to a federal Task Force officer working on an open federal investigation (ECF No. 90 at
PageID.964). The Federal Defendants further assert
that Plaintiff has made no effort to distinguish the cases
the Federal Defendants cited, cases that hold that
§ 1983 does not apply under these circumstances (id.).
The Federal Defendants’ argument has merit.
42 U.S.C. § 1983 provides a remedy for a deprivation,
“under color of any statute, ordinance, regulation, custom, or usage, of any State,” of any right guaranteed by
the Constitution and laws of the United States. “A prerequisite to the vesting of federal jurisdiction for an alleged wrong under § 1983 is the deprivation of a right
guaranteed by the Constitution and laws of the United
States. Such deprivation must be ‘under color of law.’
There must be state action.” Watson v. Kenlick Coal
Co., 498 F.2d 1183, 1185 (6th Cir. 1974) (citing Adickes
v. S. H. Kress & Co., 398 U.S. 144, 150, 152, n.7 (1970);
United States v. Price, 383 U.S. 787, 794, n.7 (1966)).
The federal government and its officials are not subject
to suit under 42 U.S.C. § 1983. Conner v. Greef,
99 F. App’x 577, 580 (6th Cir. 2004) (citing Ana Leon T.
v. Fed. Reserve Bank, 823 F.2d 928, 931 (6th Cir. 1987)).
The traditional definition of “acting under color of
state law” requires that the defendant in a § 1983 action
have exercised power “possessed by virtue of state law

56a
and made possible only because the wrongdoer is clothed
with the authority of state law.” United States v. Classic, 313 U.S. 299, 326 (1941). See also Monroe v. Pape,
365 U.S. 167, 187 (1961) (adopting Classic standard for
purposes of § 1983) (overruled in part on other grounds,
Monell v. New York City Dep’t of Soc. Svcs., 436 U.S.
658, 695-701 (1978)); Polk Cty. v. Dodson, 454 U.S. 312,
317-318 (1981). That is, the conduct allegedly causing
the deprivation of a federal right must be “fairly attributable” to the State. Lugar v. Edmondson Oil Co.,
457 U.S. 922, 937 (1982). “[T]he deprivation must be
caused by the exercise of some right or privilege created
by the State or by a rule of conduct imposed by the state
or by a person for whom the State is responsible.” Id.
And “the party charged with the deprivation must be a
person who may fairly be said to be a state actor. This
may be because he is a state official, because he has
acted together with or has obtained significant aid from
state officials, or because his conduct is otherwise chargeable to the State.” Id.
Here, Plaintiff does not dispute that (1) Agent Brownback is an FBI Agent; (2) Officer Allen is a Task Force
Officer; (3) the FBI opened an investigation into Davison; and (4) in the course of that investigation, Agent
Brownback and Officer Allen encountered King. As
the Federal Defendants point out, the Sixth Circuit has
repeatedly held that § 1983 does not apply to federal
Task Force officers working on an open federal investigation. The fact that a state arrest warrant or state
crime was involved in the exercise of duties under a cooperative federalism scheme does not change the analysis. Nor does Plaintiff provide any support for finding
that either the geographical location of the federal Task
Force officers or the citizenship of the fugitive sought

57a
would change the analysis. The mere exercise of duties under a cooperative federalism scheme does not
qualify a person as acting “under color of state law.”
Strickland on Behalf of Strickland v. Shalala, 123 F.3d
863, 867 (6th Cir. 1997) (reversing the district court’s decision and observing that “[n]o other court has extended
the ‘under color of state law’ element of § 1983 to the
implementation of a cooperative federalism program by
federal officials”).
For example, in Petty v. United States, 80 F. App’x
986 (6th Cir. 2003), a case arising from the execution of
a search warrant, the Sixth Circuit held that the federally deputized local law enforcement officers were federal actors. Id. at 989. The Sixth Circuit pointed out
that a city police officer assigned to the FBI’s multijurisdictional task force was considered a federal employee for purposes of the Federal Tort Claims Act
(FTCA) “[b]y virtue of his assignment to an FBIoperated task force,” while other city police officers involved in the same incident who were not attached to the
task force were not subject to the FTCA “because they
[were] not federal employees.” Id. See also Majors
v. City of Clarksville, 113 F. App’x 659, 659 (6th Cir.
2004) (§ 1983 claim against police officers acting as deputized task force agents of Drug Enforcement Administration [DEA] to participate in an investigation with
the DEA was “in reality a Bivens claim”); Ellis v. Ficano, No. 94-1039, 1995 WL 764127, at *6 (6th Cir. Dec.
27, 1995) (table opinion) (§ 1983 did not apply to Wayne
County law enforcement officers who were deputized as
DEA Task Force agents executing a search warrant in
conjunction with the Wayne County sheriff ’s department, but “the plaintiffs were left with an appropriate
avenue of recovery against them under Bivens”);

58a
Love v. Mosley, No. 1:14-CV-281, 2015 WL 5749517, at
*6-8 (holding § 1983 inapplicable to claim against
the defendant-Michigan Department of Corrections
investigator who was deputized as a U.S. Marshal and
working with the U.S. Marshal’s Grand Rapids Fugitive
Task Force to arrest the plaintiff ), adopted in 2015
WL 5749508 (W.D. Mich. 2015); Pike v. United States,
868 F. Supp. 2d 667, 678 (M.D. Tenn. 2012) (§ 1983
claims brought by resident of a residence searched by
state and local law enforcement officers who served as
members of a fugitive task force “are plainly Bivens
claims, not § 1983 claims”).
Similarly, “[t]he intergovernmental nature of a joint
state-federal program does not by itself make out a conspiracy.” Strickland, 123 F.3d at 867 (quoting Olson v.
Norman, 830 F.2d 811, 821 (8th Cir. 1987)). Therefore,
even if Officer Allen were acting under color of state law,
there is no merit in Plaintiff ’s argument that Agent
Brownback was conspiring with Officer Allen such that
§ 1983 would apply to both Defendants. There must be
evidence that the federal and state officials engaged in
a conspiracy or “symbiotic” venture to violate a person’s
rights under the Constitution or federal law, not that
they merely participated in a joint state-federal program. See Strickland, supra. Cf. Snyder v. United
States, 990 F. Supp. 2d 818, 836 (S.D. Ohio) (holding
that the defendant-FBI employee is “a federal actor”
and “cannot be sued under Section 1983”), aff ’d,
590 F. App’x 505 (6th Cir. 2014).
Because Agent Brownback and Officer Allen acted
under color of federal law, not state law, they are not
subject to liability under § 1983. Accordingly, Count I
is properly dismissed.

59a
2.

Count II:

Bivens (Brownback & Allen)

Alternatively, Plaintiff alleges in Count II of his
Amended Complaint that all of the actions taken by
Brownback and Allen “were done while acting in their
capacity as federal agents and caused the deprivation of
James’ clearly-established constitutional rights under
the Fourth Amendment of the United States Constitution, including (a) Freedom from unreasonable seizure;
(b) Freedom from unreasonable searches; (c) Freedom
from the use of excessive force; and (d) Freedom from
malicious prosecution” (ECF No. 30, Amend. Compl. at
¶ 80).
The Federal Defendants argue that qualified immunity protects Allen and Brownback from Plaintiff ’s
Bivens claims in Count II (ECF No. 72 at PageID.371405). Specifically, the Federal Defendants argue that
accepting Plaintiff ’s version of the facts as true, his
claim fails all three parts of the Sixth Circuit’s qualified
immunity test: (1) the Officers’ conduct was reasonable and did not violate Plaintiff ’s constitutional rights;
(2) even if one assumes that Plaintiff ’s rights were violated, they were not clearly established at the time, i.e.,
every reasonable officer would not have known that the
Officers’ conduct was unconstitutional; and (3) the Officers did not act in an objectively unreasonable manner
given the tense and rapidly developing circumstances
(id. at PageID.357-358).
Plaintiff rejects the Federal Defendants’ argument
that Allen and Brownback are entitled to qualified immunity (ECF No. 74 at PageID.576). According to Plaintiff,
Allen and Brownback violated his constitutional rights
in illegally stopping, searching and arresting him; using
excessive force; and maliciously prosecuting him (id. at

60a
PageID.576-589). Plaintiff asserts that these constitutional rights were clearly established at the time Allen
and Brownback violated them (id. at PageID.589).
In Bivens v. Six Unknown Named Agents of Fed.
Bureau of Narcotics, 403 U.S. 388 (1971), the Supreme
Court “recognized for the first time an implied private
action for damages against federal officers alleged
to have violated a citizen’s constitutional rights.” Corr.
Servs. Corp. v. Malesko, 534 U.S. 61, 66 (2001). The doctrine of qualified immunity is an affirmative defense
to Bivens claims. Robertson v. Lucas, 753 F.3d 606,
614-15 (6th Cir. 2014). “Once the qualified immunity
defense is raised, the burden is on the plaintiff to demonstrate that the officials are not entitled to qualified immunity.” Id. at 615 (citation omitted). The Sixth Circuit has instructed that “insubstantial claims against
government employees should be resolved as early in
the litigation as possible, preferably prior to broad discovery.” Johnson v. Moseley, 790 F.3d 649, 653 (6th Cir.
2015).
In Saucier v. Katz, 533 U.S. 194, 201-02 (2001), the
Supreme Court set forth the following two-step qualified
immunity analysis: a court must determine whether
“the facts alleged show the officer’s conduct violated a
constitutional right,” and the court must determine
whether that right was “clearly established.” Id. Some
panels of the Sixth Circuit add a third inquiry: “whether
the official’s actions were objectively unreasonable in
light of that clearly established right.” Abel v. Harp,
278 F. App’x 642, 649 (6th Cir. 2008) (quoting Risbridger
v. Connelly, 275 F.3d 565, 569 (6th Cir. 2002)). See
Sample v. Bailey, 409 F.3d 689, 696 n.3 (6th Cir. 2005)
(explaining the reasoning for the Sixth Circuit’s three-

61a
step approach for evaluating qualified immunity claims).
But see Grawey v. Drury, 567 F.3d 302, 309 (6th Cir.
2009) (opining that the third step is “redundant” in excessive force cases).
The court must determine whether the plaintiff ’s
facts, as necessarily admitted by the defendants, show a
violation of clearly established law. Abel, 278 F. App’x
at 649 (citing Williams v. Mehra, 186 F.3d 685, 690
(6th Cir. 1999) (en banc)). “If no constitutional right
would have been violated were the allegations established, there is no necessity for further inquiries concerning qualified immunity.” Saucier, 533 U.S. at 201.
See also Abel, 278 F. App’x at 649 (“If the analysis under
the first step suggests that no constitutional violation
transpired, then the analysis is complete, and we should
grant summary judgment to the defendant.”).
a.

Freedom from Unreasonable Search & Seizure

The first Bivens claims Plaintiff alleges are a violation of his right to be free from an unreasonable search
and a violation of his right to be free from an unreasonable seizure. The Fourth Amendment protects “the
right of the people to be secure in their persons, houses,
papers, and effects, against unreasonable searches and
seizures.” U.S. Const. amend. IV. In Terry v. Ohio,
392 U.S. 1, 30-31 (1968), the Supreme Court held that
“when a law enforcement officer has a reasonable, articulable suspicion that a person may be involved in criminal activity, he may, consistent with the Fourth Amendment, conduct a brief investigatory stop of the person.”
Loza v. Mitchell, 766 F.3d 466, 476 (6th Cir. 2014).
Moreover, “[d]uring the stop, the officer may make ‘reasonable inquiries’ of the person and conduct a pat-down

62a
search to check for weapons.” Id. “Reasonable inquiries” include, for example, questions about a person’s
identity. Id.; see also United States v. Hensley, 469 U.S.
221, 229 (1985) (observing that if police have a reasonable suspicion that a person they encounter was involved
in connection with a completed felony, then they may
conduct a Terry stop to “ask questions[ ] or check identification”); Hayes v. Florida, 470 U.S. 811, 816 (1985)
(“[I]f there are articulable facts supporting a reasonable
suspicion that a person has committed a criminal offense, that person may be stopped in order to identify
him, to question him briefly, or to detain him briefly
while attempting to obtain additional information.”).
“[I]nterrogation relating to one’s identity or a request
for identification by the police does not, by itself, constitute a Fourth Amendment seizure.” I.N.S. v. Delgado,
466 U.S. 210, 216 (1984). Last, an officer may seize other
evidence discovered during a pat-down search for weapons as long as the search “stays within the bounds
marked by Terry.” Minnesota v. Dickerson, 508 U.S.
366, 373 (1993).
The facts alleged in this case do not show that the officers’ conduct violated Plaintiff ’s constitutional right to
be free from an unreasonable search or seizure. Plaintiff argues that any suspicion that the officers had that
Plaintiff had committed a crime was “neither reasonable
nor grounded in specific and articulable facts” where
Plaintiff and Davison “looked nothing alike” (ECF No.
74 at PageID.578-580). However, the Court agrees with
the Federal Defendants that stopping Plaintiff to confirm whether he was the fugitive they sought did not
violate Plaintiff ’s constitutional rights (ECF No. 72 at
PageID.373).

63a
“Reasonable suspicion for an investigative stop must
be considered under the totality of the circumstances,
considering ‘all of the information available to law enforcement officials at the time.’ ” Humphrey v. Mabry,
482 F.3d 840, 846 (6th Cir. 2007) (quoting Feathers v.
Aey, 319 F.3d 843, 849 (6th Cir. 2003)). At the time of
the investigative stop in this case, Agent Brownback and
Officer Allen had two photographs of the fugitive, and
they knew he was a white male, 26 years old, between
5’10” and 6’3” tall, wearing glasses, and seen in the
Leonard Street area on the previous day (JSF ¶¶ 11-13).
The officers identified Plaintiff, a white male in his 20s,
within the same height range, wearing glasses, and
walking in the same vicinity the following day (id. ¶¶ 1416). Their identification, while mistaken, had a particularized and objective basis. It was more than a mere
hunch. And the officers’ subsequent interaction with
Plaintiff provided support for their reasonable suspicion. See, e.g., Kowolonek v. Moore, 463 F. App’x 531,
535 (6th Cir. 2012) (holding, where the plaintiff only
“generally fit” the suspect’s description and the officer
was unable to immediately corroborate his identity, the
plaintiff ’s angry demeanor and active resistance also
provided support for the officer’s reasonable suspicion).
While the officers’ identification on July 18, 2014 was
mistaken, “certainty” is not “the touchstone of reasonableness under the Fourth Amendment.” Hill v. California, 401 U.S. 797, 803-04 (1971). Rather, the reasonableness inquiry includes some “latitude for honest
mistakes” that officers may make in the difficult task of
finding and arresting fugitives. Maryland v. Garrison,
480 U.S. 79, 87 (1987). Indeed, “[t]he concern of the immunity inquiry is to acknowledge that reasonable mis-

64a
takes can be made as to the legal constraints on particular police conduct.” Sample, 409 F.3d at 696 n.3
(quoting Saucier, 533 U.S. at 205).
An incorrect suspicion does not necessarily mean an
unreasonable suspicion. See, e.g., United States v.
Mundy, 591 F. App’x 320, 323 (6th Cir. 2014) (“That [the
officer’s] suspicion of a break-in turned out to be incorrect does not negate the reasonableness of his decision
to stop and investigate.”); Dorsey v. Barber, 517 F.3d
389, 397 (6th Cir. 2008) (while “the amount of detail in
the suspects’ descriptions in the [‘be on the lookout’] left
much to be desired” and was “not definitive, the available details supported the formation of reasonable suspicion that plaintiffs were the same two young black males”
sought by the sheriff ’s department); Wrubel v. Bouchard, 65 F. App’x 933, 938 (6th Cir. 2003) (“although
the fact that [the victim’s] description did not identify all
of Wrubel’s distinctive facial features would create some
doubt in any reasonable person’s mind as to whether
Wrubel was in fact the rapist, this fact does not make it
unreasonable to conclude that Wrubel was the rapist”);
Houston v. Clark Cty. Sheriff Deputy John Does 1-5,
174 F.3d 809, 813 (6th Cir. 1999) (“Viewing the totality
of the circumstances, we are convinced that all four
officers reasonably believed that a crime occurred at
Chuck’s and possessed a reasonable suspicion (to be
sure, a mistaken one) that the occupants of Houston’s
car were involved in that crime.”).
Neither does the seizure of the wallet, a fact alleged
by Plaintiff (JSF ¶ 25), require a finding that a constitutional violation transpired. Assuming that Officer Allen removed Plaintiff ’s wallet, he could properly do so
as part of the protective pat-down permitted by Terry.

65a
See Loza, 766 F.3d at 476. The Supreme Court recognized in Terry that “the policeman making a reasonable
investigatory stop should not be denied the opportunity
to protect himself from attack by a hostile suspect.”
Adams v. Williams, 407 U.S. 143, 146 (1972). Nothing
in Plaintiff ’s allegations supports the proposition that
Allen’s “search” was any broader than necessary to ensure that Plaintiff did not have access to a weapon.
See, e.g., United States v. Brown, 310 F. App’x 776, 781
(6th Cir. 2009) (finding no Fourth Amendment violation
where officer removed wallet from the suspect’s pocket
out of concern for her own safety).
In sum, Plaintiff ’s allegations, taken as true, do not
set forth a constitutional violation of Plaintiff ’s right to
be free from an unreasonable search and seizure. Accordingly, the Court holds that Officer Allen and Agent
Brownback are entitled to qualified immunity from
these Bivens claims in Count II.
b.

Freedom from Use of Excessive Force

The Court turns next to Plaintiff ’s Bivens claim that
Brownback and Allen violated his right to be free from
excessive force. “[C]laims that law enforcement officers have used excessive force—deadly or not—in the
course of an arrest, investigatory stop, or other ‘seizure’
of a free citizen should be analyzed under the Fourth
Amendment and its ‘reasonableness’ standard.” Jones
v. City of Cincinnati, 521 F.3d 555, 559 (6th Cir. 2008)
(quoting Graham v. Connor, 490 U.S. 386, 395 (1989)).
Important to resolution of the issue in the case at
bar is the instruction that the court must evaluate the
excessive-force claim at issue by assuming “the perspective of a reasonable officer on the scene, rather than with
the 20/20 vision of hindsight.” Abel, 278 F. App’x at

66a
649-52 (quoting Graham, 490 U.S. at 396); Fox v.
DeSoto, 489 F.3d 227, 236 (6th Cir. 2007) (same).
In applying the reasonableness calculus, the court
considers the following three factors: (1) the severity
of the crime at issue; (2) whether the suspect poses
an immediate threat to the safety of the officers or others; and (3) whether the suspect is actively resisting
arrest or attempting to evade arrest by flight. Abel,
278 F. App’x at 650; Sigley v. City of Parma Heights,
437 F.3d 527, 534 (6th Cir. 2006); Dunigan v. Noble,
390 F.3d 486, 492 (6th Cir. 2004). Despite these three
discrete factors, the jurisprudence on excessive-force
claims has consistently maintained that “the test of reasonableness under the Fourth Amendment is not capable of precise definition or mechanical application . . .
its proper application requires careful attention to the
facts and circumstances of each particular case.” Abel,
supra (quoting Graham, 490 U.S. at 396).
Here, the “severity of the crime at issue”—home
invasion—is a factor that weighs in favor of a finding
of reasonableness on the part of Defendants Allen and
Brownback. Home invasion is a felony crime under
Michigan law, punishable by imprisonment up to 20 years.
MICH. COMP. LAWS § 750.110a.
The second factor in the reasonableness calculus
weighs against a finding of reasonableness on the part
of Defendants Allen and Brownback, but only to the extent that Plaintiff did not pose an immediate threat to
the safety of the officers or others. Defendants Allen
and Brownback initiated the investigative stop, making
a calculated—and mistaken—judgment about whether
to stop Plaintiff and, indeed, the manner in which they
stopped him.

67a
However, the third factor—whether Plaintiff actively
resisted or attempted to evade arrest—strongly weighs
in favor of a finding of reasonableness on the part of Defendants Allen and Brownback. Unlike the plaintiff in
Abel, supra, who did not actively resist arrest but instead adopted a passive position and “[b]alled up in a fetal position to protect [his] face, chest, and stomach,”
278 F. App’x at 651-52, Plaintiff does not allege that he
was a passive participant. Rather, Plaintiff admits
that he attempted to run and that he bit Officer Allen in
the arm that was around Plaintiff ’s neck (JSF ¶¶ 27-30).
Plaintiff thought Allen and Brownback were mugging him and believed he was acting in self-defense, but
the reasonableness of Allen and Brownback’s particular
use of force is not judged from the perspective of the
victim. Rather, the reasonableness of a particular use
of force must be judged from the perspective of a reasonable officer on the scene. Graham, 490 U.S at 396.
The reasonableness calculus “contains a built-in measure of deference to the officer’s on-the-spot judgment
about the level of force necessary in light of the circumstances of the particular case.” Burchett v. Kiefer,
310 F.3d 937, 944 (6th Cir. 2002). From Allen and Brownback’s perspective, it was reasonable of them to interpret Plaintiff ’s attempt to run and biting as an escalation of violence and to move “quickly and aggressively
to end the confrontation.” See Lyons v. City of Xenia,
417 F.3d 565, 578 (6th Cir. 2005). In Bouggess v. Mattingly, 482 F.3d 886, 891 (6th Cir. 2007), the Sixth Circuit explained that “resisting arrest by wrestling oneself
free from officers and running away would justify use of
some force to restrain the suspect.” Likewise, in Lyons, 417 F.3d at 577-78, the Sixth Circuit concluded that

68a
no constitutional violation was established where the officer tackled a suspect who resisted arrest. And in
Burchett v. Kiefer, 310 F.3d 937, 944 (6th Cir. 2002),
where the plaintiff admitted that he “twisted and turned
some” when the officers tried to handcuff him, the Sixth
Circuit found the officers’ use of force reasonable.
In sum, the Court determines that the factors to be
considered in the reasonableness analysis require a finding that no constitutional violation transpired. Accordingly, the Court holds that Officer Allen and Agent
Brownback are also entitled to qualified immunity from
Plaintiff ’s Bivens excessive-force claim in Count II.
c.

Freedom from Malicious Prosecution

The parties agree that, assuming a Bivens claim of
malicious prosecution exists, such a claim would require
Plaintiff to prove “(1) the defendant made, influenced,
or participated in the decision to prosecute the plaintiff;
(2) there was a lack of probable cause for the prosecution; (3) as a consequence of the prosecution, the plaintiff suffered a deprivation of liberty, apart from the initial seizure; and (4) the criminal proceeding was resolved in the plaintiff ’s favor” (ECF No. 72 at
PageID.397; ECF No. 74 at PageID.587). Buchanan v.
Metz, 647 F. App’x 659, 665 (6th Cir. 2016). See also
Johnson, 790 F.3d at 654 (delineating elements).
Here, Plaintiff does not include in Count II any specific factual allegations supporting his Bivens malicious
prosecution claim. In an earlier paragraph in his
Amended Complaint, he alleges the following:
68.

Owing to the false and misleading statements of
Allen and Brownback and the lack of video evi-

69a
dence to the contrary due to the actions of Morris, the prosecutor proceeded with charges
against James and tried him for assaulting a police officer and causing injury (Allen), assaulting a police officer (Brownback), and assault
with a dangerous weapon (for the handcuffs
that Allen or Brownback was able to clasp to
one of James’s wrists while James was trying to
escape).
ECF No. 30 at PageID.117, Amended Compl. ¶ 68.
This conclusory allegation against Officer Allen and
Agent Brownback does not state a plausible malicious
prosecution claim under Rule 12(b)(6). The Court
agrees with the Federal Defendants that this paragraph, which does not identify the statements at issue
or their speakers, is so non-specific as to make it impossible to discern the basis for Plaintiff ’s claim (ECF No.
72 at PageID.397-398). The Court cannot discern upon
which statements Plaintiff is relying, let alone their materiality to the probable-cause determination. In short,
Plaintiff ’s Bivens malicious-prosecution claim in Count
II fails to present enough facts to state a claim to relief
that is plausible on its face. Twombly, 550 U.S. at 557,
570. The allegations are insufficient to meet the notice
pleading requirements of Federal Rule of Civil Procedure 8(a) and warrant further discovery proceedings.
Accordingly, the Bivens malicious-prosecution claim in
Count II will be dismissed.
3.

Count III:

§ 1983 (Morris)

In Count III, Plaintiff alleges that “[a]ll of the actions
taken by Morris and referred to in the preceding allegations were done while acting under color of Michigan law
and had the effect of depriving James of his clearly-

70a
established constitutional rights under the Fourth
Amendment of the United States Constitution, including his freedom from malicious prosecution” (ECF No.
30 at PageID.120, Amend. Compl. ¶ 86). In the preceding allegations, Plaintiff alleges, in pertinent part, the
following:
57.

Morris ordered several bystanders to delete
any video of the event, telling them: No, no,
no, we got undercover officers there. No pictures. Delete it. Delete it. It’s for the safety
of the officers. Everybody has cameras . . .
All we used to do was tell the story; we didn’t
have a picture to tell the story with, right? Did
you delete it? . . . We don’t need no pictures.

58.

Morris confirmed that at least two bystanders
deleted video of the event.

59.

Because of Morris’s actions, no video of the actual struggle between Allen and Brownback
and James was ever discovered; only the aftermath remains.
* * *

68.

Owing to the false and misleading statements of
Allen and Brownback and the lack of video evidence to the contrary due to the actions of Morris, the prosecutor proceeded with charges
against James and tried him for assaulting a police officer and causing injury (Allen), assaulting a police officer (Brownback), and assault
with a dangerous weapon (for the handcuffs
that Allen or Brownback was able to clasp to
one of James’s wrists while James was trying to
escape).

71a
(ECF No. 30 at PageID.114 & 117, Amended Compl.
¶¶ 57-59 & 68).
Defendant Morris argues that she is entitled to
dismissal of Count III against her under Federal Rule of
Civil Procedure 12(b)(6) because Plaintiff fails to state a
malicious prosecution claim (ECF No. 78 at PageID.712).
Specifically, Defendant Morris argues that Plaintiff ’s
complaint fails to allege that she “made, influenced,
or participated” in the decision to prosecute (id. at
PageID.712-715). Defendant Morris argues that at
best, Plaintiff ’s allegation is that her on-scene statements to delete video “influenced” the decision to prosecute by depriving the prosecutor of additional evidence
to consider when making the charging decision (ECF
No. 78 at PageID.713-714). Morris argues that “[t]hat
allegation is nothing more than the passive or neutral
activity that fails to pass Sixth Circuit muster” (id. at
PageID.714). Defendant Morris argues that “the speculated inconsistencies that may have arisen from undiscovered cellphone video cannot reasonably compel the
conclusion urged by King, namely, that probable cause
to prosecute had ceased to exist, or never existed at all”
(id. at PageID.715). Alternatively, Defendant Morris
argues that she is entitled to summary judgment on the
basis of qualified immunity where Plaintiff fails to show
that she personally violated his constitutional rights or
to plead or show that she had some reason to doubt the
victim eyewitness identification of him as the assailant
(id. at PageID.715-718).
In response, Plaintiff argues that he sufficiently alleged in his Amended Complaint that Defendant Morris
influenced the decision to prosecute him by actively

72a
and intentionally destroying video evidence of his altercation with Allen and Brownback (ECF No. 80 at
PageID.749). Plaintiff also argues that whether Morris influenced the decision to prosecute James is itself a
material issue of fact that precludes summary judgment
(id. at PageID.750). According to Plaintiff, there is
nothing “passive or neutral” about Morris’ actions on
the day in question; rather, she went from person to person at the scene and ordered them to delete video and
photographic evidence (id. at PageID.751).
Defendant Morris’ argument entitles her to dismissal.
To prevail on his § 1983 claim in Count III, Plaintiff
must establish that Defendant Morris was acting under
color of state law and deprived him of a right secured by
the Constitution or the laws of the United States. Defendant Morris does not dispute that she was acting under color of state law, nor does she dispute that malicious prosecution constitutes a constitutional deprivation in violation of the Fourth Amendment. And the
parties generally agree on the elements of a malicious
prosecution claim (ECF No. 78 at PageID.712; ECF No.
80 at PageID.749), as set forth supra. The parties’ dispute centers on whether these unique facts, as set forth
in Plaintiff ’s allegations, state a plausible claim for malicious prosecution, exposing Defendant Morris to liability under 42 U.S.C. § 1983. As there is no dispute that
Plaintiff was deprived of his liberty as a result of criminal proceedings that were resolved in his favor, the parties focus on the first and second elements of the claim:
whether Defendant Morris “made, influenced, or participated” in the decision to prosecute Plaintiff and whether
there was a lack of probable cause for the prosecution.

73a
As to the first element, the parties agree that what it
means to “influence” a prosecution is not clearly established law (ECF No. 80 at PageID.749; ECF No. 81 at
PageID.840-842).
The Sixth Circuit observed that
“[t]here is very little case law in this circuit discussing
precisely what role an investigating officer must play in
initiating a prosecution such that liability for malicious
prosecution is warranted . . . ” Sykes v. Anderson,
625 F.3d 294, 311 (6th Cir. 2010). The Sixth Circuit further noted that “[w]hether an officer influenced . . .
the decision to prosecute hinges on the degree of the officer’s involvement and the nature of the officer’s actions.” Id. at 311, n.9. “The totality of the circumstances informs this fact determination.” Id.
Accepting all well-pleaded factual allegations therein
as true, the Court determines that Plaintiff sufficiently
alleged facts giving rise to a reasonable inference that
Defendant Morris’ actions “influenced” the prosecutor’s
decision to prosecute. Specifically, Plaintiff alleges that
Defendant Morris’ intentional destruction of video
and photographic evidence surrounding Plaintiff ’s
struggle with Officer Allen and Agent Brownback “influenced” the institution of legal process against Plaintiff. Although Morris asserts that the allegation is
“pure speculation,” the Court agrees that it is reasonable to infer that the decision to prosecute would have
been altered had Defendant Morris not failed to preserve a video showing that Plaintiff was justified in assaulting Officer Allen and Agent Brownback. See, e.g.,
Petrishe v. Tenison, No. 10 C 7950, 2013 WL 5645689, at
*4 (N.D. Ill. Oct. 15, 2013) (“Although Petrishe may have
difficulty actually proving the contents of the nowerased video, e.g., the existence of evidence favorable to
the accused, the court finds that Petrishe has pleaded

74a
sufficient factual detail to put Defendants on notice of
the factual basis for the claim pending against them and
to plausibly suggest the existence and suppression of exculpatory or impeaching evidence [six seconds of a taser
video] that would have altered the decision to go to
trial.”).
However, even assuming Plaintiff ’s allegations sufficiently implicate Defendant Morris’ actions in the decision to prosecute, Plaintiff ’s allegations do not sufficiently allege an absence or lack of probable cause for
the criminal proceeding against him. In Fox, 489 F.3d
at 237, the Sixth Circuit indicated that while the contours of a § 1983-malicious claim may be uncertain,
“[w]hat is certain, however, is that such a claim fails
when there was probable cause to prosecute.” Probable cause to initiate a criminal prosecution exists where
“facts and circumstances [are] sufficient to lead an ordinarily prudent person to believe the accused was guilty
of the crime charged.” Webb v. United States, 789 F.3d
647, 660 (6th Cir. 2015) (quoting MacDermid v. Discover
Fin. Servs., 342 F. App’x 138, 146 (6th Cir. 2009)).
Here, Plaintiff ’s Amended Complaint does not address “probable cause,” let alone sufficiently allege it
was lacking. Conversely, Plaintiff acknowledges that
Officer Allen and Agent Brownback were wearing lanyards with badges and admits fleeing from, resisting,
fighting with, and eventually biting a law-enforcement
officer (Amended Compl. ¶¶ 25, 43 & 48). In short,
Plaintiff has not stated facts demonstrating that the
facts and circumstances were insufficient to lead an ordinarily prudent person to believe Plaintiff was guilty
of the crimes charged.
See MICH. COMP. LAWS
§§ 750.81d(l) (resisting and obstructing a police officer),

75a
750.81d(2) (resisting and obstructing a police officer
causing injury), and 750.82 (felonious assault). Accordingly, the Court will grant Defendant Morris’ motion
and dismiss Count III. See McKinley v. City of Mansfield, 404 F.3d 418, 444 (6th Cir. 2005) (affirming the
trial court’s decision finding that no constitutional violation occurred and therefore seeing no need to proceed
to the issue of qualified immunity).
4.

Count IV:

FTCA (USA)

In Count IV, under the Federal Tort Claims Act,
Plaintiff alleges that the actions of Agent Brownback
and Officer Allen amount to the following torts: (1) Assault, (2) Battery, (3) False Arrest, (4) False Imprisonment, (5) Malicious Prosecution and (6) Intentional Infliction of Emotional Distress (ECF No. 30 at PageID.121,
Amended Compl. ¶ 96). Plaintiff alleges that their actions were “intentional, malicious, undertaken in bad
faith, and/or in gross and reckless disregard of James’s
constitutional rights” (id. ¶ 97).
The Federal Defendants argue that the United
States is entitled to dismissal of each of the six tort
claims delineated in Count IV against it because Michigan law bars these claims where law enforcement officers act in good faith (ECF No. 72 at PageID.405-409).
The Federal Defendants also argue that the tort claims
fail because the officers were acting within the law (id.
at PageID.410-413). Last, the Federal Defendants argue that Plaintiff ’s FTCA claims based on Officer Allen’s conduct must be dismissed because Plaintiff failed
to exhaust his administrative remedies for this claim
where Plaintiff ’s administrative claim only sought relief
under the FTCA based on Agent Brownback’s actions
(id. at PageID.414-415).

76a
In response, Plaintiff argues that Michigan law does
not provide immunity under the FTCA for either Allen’s
or Brownback’s actions (ECF No. 74 at PageID.590593). Further, Plaintiff argues that even if Michigan
governmental immunity applies, it only immunizes actions taken in good faith, and the officers did not act in
good faith when they committed multiple torts against
Plaintiff (id. at PageID.593-594). Plaintiff also argues
that questions of fact preclude summary judgment on
each of his tort claims (id. at PageID.594-595). Last,
Plaintiff rejects the Federal Defendants’ argument that
he did not exhaust his administrative remedies as to Allen (id. at PageID.595). According to Plaintiff, the language in the form he submitted makes clear that his
claim covered the actions of both Brownback and Allen
(id. at PageID.596-597).
The Federal Defendants’ argument has merit.
The United States may be liable under the FTCA for
certain torts committed by federal employees, both individually and collectively. See 28 U.S.C. § 2671 et seq.
Although generally exempted from liability under the
FTCA for intentional torts, the United States remains
liable for claims arising from certain intentional torts
committed by investigative or law enforcement officers,
including assault, battery, false imprisonment, false
arrest, abuse of process, and malicious prosecution.
28 U.S.C. § 2680(h). The FTCA requires courts to apply the substantive law of the place where the event occurred. 28 U.S.C. § 1346(b)(1).
In Odom v. Wayne County, 760 N.W.2d 217, 228
(Mich. 2008), the Michigan Supreme Court stated that
the proper method for determining whether govern-

77a
mental immunity applies to intentional torts, such as assault and battery, is to apply the test set forth in Ross v.
Consumers Power Co., 363 N.W.2d 641, 667-68 (Mich.
1984). Under the Ross test, a governmental employee
is immune from liability from intentional torts if he can
establish that (1) the challenged actions were undertaken during the course of employment and the employee was acting, or reasonably believed that he was
acting, within the scope of his authority; (2) the acts
were undertaken in good faith, or were not undertaken
with malice; and (3) the acts were discretionary, as opposed to ministerial. Odom, 760 N.W.2d at 228.
In Valdez v. United States, 58 F. Supp. 3d 795
(W.D. Mich. 2014) (Jonker, J.), this Court held that the
United States retains the benefit of the same state law
immunities available to the employees. The Court determined that this reading of the statute “measures the
liability of the United States by the liability that would
apply to its individual employee if that employee were
sued in state court on the state tort law.” Id. at 828.
“To read [the FTCA] otherwise would lead to the incongruous result of the United States opening itself to liability that would never be imposed on the individual employee as an individual defendant under state law.” Id.
at 829. See also Washington v. Drug Enforcement Admin., 183 F.3d 868, 874 (8th Cir. 1999) (applying Missouri law on police use of force during searches); Jackson v. United States, 77 F. Supp. 2d 709, 715 (D. Md.
1999) (applying actual malice requirement of Maryland
law); McElroy v. United States, 861 F. Supp. 585, 59496 (W.D. Tex. 1994) (“When determining whether the
conduct of law enforcement officers constituted assault,
false imprisonment, or false arrest under the FTCA, the

78a
United States may invoke any defenses available to individual law enforcement officers under [state] law”);
Nash v. United States, 897 F. Supp. 180, 182-83 (E.D.
Pa. 1994) (applying Pennsylvania law for use of force by
task force officers). The Court agrees that the United
States is entitled to the same Michigan governmental
immunity from intentional torts that Agent Brownback
and Officer Allen would have had under state law in this
case.
Applying the Ross test here, Plaintiff does not dispute that the Task Force officers’ conduct was in the
course of their employment and under their authority as
Task Force officers. Nor does Plaintiff dispute that
the acts at issue—Plaintiff ’s stop, arrest and prosecution
—were discretionary, not ministerial, acts. The only
prong of the Ross test that Plaintiff challenges is whether
the officers acted in “good faith.” Plaintiff asserts that
the officers acted in bad faith because they unlawfully
“stopped,” “arrested” and “beat” him (ECF No. 74 at
PageID.594).
The Michigan Supreme Court defines a lack of good
faith as “malicious intent, capricious action or corrupt
conduct” or “willful and corrupt misconduct.” Kreipke
v. Wayne State Univ., 807 F.3d 768, 784 (6th Cir. 2015)
(quoting Odom, supra). “Unlike qualified immunity
under federal law, which uses an objective standard,
‘[t]he good-faith element of the Ross test is subjective in
nature.’ ” Bletz v. Gribble, 641 F.3d 743, 757 (6th Cir.
2011) (citation omitted). See also Brown v. Lewis,
779 F.3d 401, 420 (6th Cir. 2015) (“Michigan state law
imposes a subjective test for governmental immunity for
intentional torts, based on the officials’ state of mind, in

79a
contrast to the objective test for federal qualified immunity.”). Hence, “determining good faith is not the
same as analyzing whether a defendant’s conduct was
objectively reasonable,” although “evidence useful to determining objective reasonableness can also serve to
evaluate good faith.”
Scozzari v. Miedzianowski,
454 F. App’x 455, 467 (6th Cir. 2012).
Here, the parties’ undisputed facts support the finding that the Task Force officers’ actions were not undertaken with the malice required under Michigan law.
Rather, even Plaintiff ’s stated reason for the officers’
stop was the officers’ determination that Plaintiff was
the fugitive, and the officers’ motive for restraining
Plaintiff was to secure him and ensure their safety after
Plaintiff admittedly attempted to flee and bit Officer Allen. These facts do not indicate that the officers “demonstrated a reckless indifference to the common dictates
of humanity.” Odom, 760 N.W.2d at 225. While the
officers’ identification was mistaken, and Plaintiff ’s perception of the incident was vastly different, the officer
who can show that he had a good-faith belief “is entitled
to the protections of governmental immunity regardless
of whether he was correct in that belief.” Rucinski v.
Cty. of Oakland, 655 F. App’x 338, 343-44 (6th Cir. 2016)
(quoting Latits v. Phillips, 826 N.W.2d 190, 195 (Mich.
Ct. App. 2012)). Hence, assuming arguendo that Plaintiff preserved his FTCA claims as to both Officer Allen
and Agent Brownback, the United States is entitled to
dismissal of the claims because (1) the challenged actions were undertaken during the course of employment
and the employees were acting within the scope of their
authority; (2) the acts were undertaken in good faith, or
were not undertaken with malice; and (3) the acts were

80a
discretionary, as opposed to ministerial.
760 N.W.2d at 228.

See Odom,

Even if the United States is not entitled to immunity
under the FTCA in this case, Count IV is also properly
dismissed for failure to state a claim, for the reasons
previously stated and for the reasons stated more
fully by the Federal Defendants (ECF No. 72 at
PageID.410-413; ECF No. 90 at PageID.971-973).
Specifically, Plaintiff ’s claims for assault and battery
are properly dismissed where the Task Force officers used
reasonable force in subduing Plaintiff. Plaintiff ’s falseimprisonment, false-arrest and malicious prosecution
claims are properly dismissed where probable cause existed. And Plaintiff ’s intentional-infliction-of-emotionaldistress claim is properly dismissed where the Task
Force officers acted within their authority.
In sum, Michigan law bars Plaintiff ’s FTCA claims,
either on governmental immunity grounds or for failure
to state a claim. Accordingly, Count IV is dismissed.
III.

CONCLUSION

For the foregoing reasons,
IT IS HEREBY ORDERED that Defendants Allen,

Brownback and the United States’ Motion to Dismiss, or
in the Alternative for Summary Judgment (ECF No. 71)
is GRANTED.
IT IS FURTHER ORDERED that Defendant Morris’
Motion to Dismiss (ECF No. 77) is GRANTED.

Because this Opinion and Order resolves all pending
claims in this matter, a corresponding Judgment will
also enter. See FED. R. CIV. P. 58.

81a
Dated:

Aug. 24, 2017
/s/

JANET T. NEFF
JANET T. NEFF
United States District Judge

82a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

No. 17-2101
JAMES KING, PLAINTIFF-APPELLANT
v.
UNITED STATES OF AMERICA, ET AL., DEFENDANTS
DOUGLAS BROWNBACK; TODD ALLEN,
DEFENDANTS-APPELLEES
[Filed: May 28, 2019]
ORDER
BEFORE:

Judges.

BOGGS, CLAY, and ROGERS, Circuit

The court received a petition for rehearing en banc.
The original panel has reviewed the petition for rehearing and concludes that the issues raised in the petition
were fully considered upon the original submission and
decision of the case. The petition then was circulated
to the full court. No judge has requested a vote on the
suggestion for rehearing en banc.
Therefore, the petition is denied. Judge Rogers
would grant rehearing for the reasons stated in his dissent.

83a
ENTERED BY ORDER OF THE COURT

/s/

DEBORAH S. HUNT
DEBORAH S. HUNT, Clerk

84a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

No. 17-2101
JAMES KING, PLAINTIFF-APPELLANT
v.
UNITED STATES OF AMERICA, ET AL., DEFENDANTS
DOUGLAS BROWNBACK; TODD ALLEN,
DEFENDANTS-APPELLEES
[Filed: Feb. 25, 2019]
On Appeal from the United States District Court
for the Western District of Michigan at Grand Rapids
JUDGMENT

Before:

BOGGS, CLAY, and ROGERS, Circuit Judges.

THIS CAUSE was heard on the record from the district court and was argued by counsel.
IN CONSIDERATION THEREOF, IT IS ORDERED that the district court’s findings that the Federal Tort Claims Act judgment bar precludes Plaintiff ’s
remaining claims, and that Defendants are entitled to
qualified immunity are REVERSED, its judgment in favor of Defendants is VACATED, and the case is REMANDED for further proceedings consistent with the
opinion of this court.

85a
ENTERED BY ORDER OF THE COURT

/s/

DEBORAH S. HUNT
DEBORAH S. HUNT, Clerk

86a
APPENDIX E
UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION

Case No. 1:16-cv-343
JAMES KING, PLAINTIFF
v.
UNITED STATES OF AMERICA, ET AL., DEFENDANTS
Filed: Aug. 24, 2017
JUDGMENT

Hon. JANET T. NEFF
In accordance with the Opinion and Order entered
this date:
IT IS HEREBY ORDERED that Judgment is entered
in favor of Defendants and against Plaintiff.

Dated:

Aug. 24, 2017
/s/

JANET T. NEFF
JANET T. NEFF
United States District Judge

87a
APPENDIX F

1.

28 U.S.C. 2679(b) provides:

Exclusiveness of remedy

(b)(1) The remedy against the United States provided by sections 1346(b) and 2672 of this title for injury
or loss of property, or personal injury or death arising
or resulting from the negligent or wrongful act or omission of any employee of the Government while acting
within the scope of his office or employment is exclusive
of any other civil action or proceeding for money damages by reason of the same subject matter against the
employee whose act or omission gave rise to the claim or
against the estate of such employee. Any other civil action or proceeding for money damages arising out of or
relating to the same subject matter against the employee
or the employee’s estate is precluded without regard to
when the act or omission occurred.
(2)
Paragraph (1) does not extend or apply to a
civil action against an employee of the Government—
(A) which is brought for a violation of the Constitution of the United States, or
(B) which is brought for a violation of a statute
of the United States under which such action against
an individual is otherwise authorized.

88a
2.

28 U.S.C. 2680 provides in pertinent part:

Exceptions

The provisions of this chapter and section 1346(b) of
this title shall not apply to—
(a) Any claim based upon an act or omission of an
employee of the Government, exercising due care, in the
execution of a statute or regulation, whether or not such
statute or regulation be valid, or based upon the exercise
or performance or the failure to exercise or perform a
discretionary function or duty on the part of a federal
agency or an employee of the Government, whether or
not the discretion involved be abused.
*

*

*

*

*

(h)
Any claim arising out of assault, battery, false
imprisonment, false arrest, malicious prosecution, abuse
of process, libel, slander, misrepresentation, deceit, or
interference with contract rights: Provided, That, with
regard to acts or omissions of investigative or law enforcement officers of the United States Government, the
provisions of this chapter and section 1346(b) of this title
shall apply to any claim arising, on or after the date of
the enactment of this proviso, out of assault, battery,
false imprisonment, false arrest, abuse of process, or
malicious prosecution. For the purpose of this subsection, “investigative or law enforcement officer” means
any officer of the United States who is empowered by
law to execute searches, to seize evidence, or to make
arrests for violations of Federal law.
*

*

*

*

*

